<html>
<title> - IMPLEMENTATION OF THE DEBT COLLECTION IMPROVEMENT ACT OF 1996</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
     IMPLEMENTATION OF THE DEBT COLLECTION IMPROVEMENT ACT OF 1996
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 1997

                               __________

                           Serial No. 105-45

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                       U. S. GOVERNMENT PRINTING OFFICE
44-176                         WASHINGTON : 1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
PETE SESSIONS, Texas                 CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
JOE SCARBOROUGH, Florida             MAJOR R. OWENS, New York
MARSHALL ``MARK'' SANFORD, South     ROD R. BLAGOJEVICH, Illinois
    Carolina                         DANNY K. DAVIS, Illinois
JOHN E. SUNUNU, New Hampshire
ROB PORTMAN, Ohio

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                Mark Brasher, Professional Staff Member
                 John Hynes, Professional Staff Member
                          Andrea Miller, Clerk
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 18, 1997...................................     1
Statement of:
    Adams, Mitchell, commissioner, Massachusetts Department of 
      Revenue....................................................    34
    Catlett, D. Mark, Assistant Secretary for Management and 
      Chief Financial Officer, Department of Veterans Affairs....   134
    David, Ted, Chief Financial Officer, Department of 
      Agriculture................................................    98
    Donovan, Anne, Office of Child Support Enforcement, 
      Department of Health and Human Services....................   146
    Hawke, John D., Jr., Under Secretary, Department of Treasury.    59
    Koskinen, John, Deputy Director, Office of Management and 
      Budget.....................................................    47
    McNamara, Steven, Assistant Inspector General for Audit, 
      Department of Education....................................   111
    Murphy, Gerald, Assistant Fiscal Secretary, Department of 
      Treasury...................................................    65
    Summers, Lawrence, Deputy Secretary, Department of Treasury..    10
Letters, statements, etc., submitted for the record by:
    Adams, Mitchell, commissioner, Massachusetts Department of 
      Revenue, prepared statement of.............................    37
    Catlett, D. Mark, Assistant Secretary for Management and 
      Chief Financial Officer, Department of Veterans Affairs:
        Information concerning balance sheets....................   159
        Information concerning collection agencies............... , 162
        Information concerning referring debt....................   162
        Prepared statement of....................................   136
    David, Ted, Chief Financial Officer, Department of 
      Agriculture, prepared statement of.........................   101
    Donovan, Anne, Office of Child Support Enforcement, 
      Department of Health and Human Services, prepared statement 
      of.........................................................   149
    Hawke, John D., Jr., Under Secretary, Department of Treasury, 
      prepared statement of......................................    62
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Letter dated April 14, 1997, from Mr. Rubin..............    79
        Letter dated May 27, 1997, from Mr. Murphy...............    93
        Prepared statement of....................................     3
        Wall Street Journal article of March 11, 1997............   113
    Koskinen, John, Deputy Director, Office of Management and 
      Budget, prepared statement of..............................    50
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Prepared statement of....................................     8
        September 21, 1996, New York Times op-ed.................     6
    McNamara, Steven, Assistant Inspector General for Audit, 
      Department of Education, prepared statement of.............   117
    Murphy, Gerald, Assistant Fiscal Secretary, Department of 
      Treasury, prepared statement of............................    68
    Summers, Lawrence, Deputy Secretary, Department of Treasury, 
      prepared statement of......................................    14


     IMPLEMENTATION OF THE DEBT COLLECTION IMPROVEMENT ACT OF 1996

                              ----------                              


                         FRIDAY, APRIL 18, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Sessions and Maloney.
    Staff present: J. Russell George, staff director and chief 
counsel; Mark Brasher and John Hynes, professional staff 
members; Andrea Miller, clerk; and David McMillan and Mark 
Stephenson, minority professional staff members.
    Mr. Horn. The Subcommittee on Government Management will 
come to order.
    Nearly 1 year ago, Congress passed and the President signed 
into law the Debt Collection Improvement Act of 1996. This 
important law was sponsored by myself and Mrs. Maloney, the 
ranking Democrat on the subcommittee. It changed the rules of 
the game for debt collection. By providing agencies with new 
tools and incentives to increase collections, Congress hoped to 
improve the Federal Government's dismal debt collection 
performance.
    What are the results so far? Currently, the total of 
delinquent non-tax debts is $51 billion. The Treasury 
Department's Financial Management Service has spent $20 million 
implementing the Debt Collection Improvement Act, coordinating 
with Federal agencies, conducting awareness campaigns, drafting 
contracting documents and regulations, and working with 
agencies to refer their debts to Treasury. Unfortunately, the 
Financial Management Service has only collected about $300,000 
from these efforts.
    I realize that implementation does not happen overnight, 
but I feel this committee has a responsibility to ensure that 
the record improves quickly. How could we have spent $20 
million to collect $300,000? I have two principal concerns 
about the implementation of the Debt Collection Improvement 
Act. First, the initial year of implementation has given us 
reason to fear that the Financial Management Service debt 
collection function does not have the political support it 
needs, either in the Department of the Treasury or the Office 
of Management and Budget. Second, agencies appear to be balking 
at implementing the Debt Collection Improvement Act. Let me 
elaborate on each of these concerns.
    Political support is critical. Success stories resulting 
from the Debt Collection Improvement Act of 1996 illustrate 
this point. The child support enforcement provisions are 
working well. The Financial Management Service is working with 
the Office of Child Support Enforcement at the Department of 
Health and Human Services to successfully implement the child 
support enforcement provisions along with the responsibilities 
added by the President's Executive Order 13019, last September 
28, 1996. Of course, that Executive order was issued 5 weeks 
before the Presidential election.
    We are delighted that the direct deposit provisions are 
spurring improvements in electronic payments at a number of 
agencies and that the Treasury Department is on track to meet 
its timetable. Each of those programs involves administrative 
complexities equal to or exceeding those in the debt collection 
program. They involve working with 50 different State 
governments and 100 million payees. Why are these programs 
succeeding where the debt collection operation is failing? The 
answer is simple: a lack of political support.
    The President made his child support enforcement 
announcement in a weekly radio address. He clearly demonstrated 
his commitment to achieving the aggressive goals his advisors 
have laid out for him. Similarly, the Treasury Department has 
aggressively moved forward to implement the electronic payment 
legislation, with strong backing from the President's Office of 
Management and Budget as well as agencies with large 
beneficiary groups such as the Social Security Administration.
    In order for the Debt Collection Improvement Act to be a 
success, it will need the strong backing of the President and 
the Office of Management and Budget, as well as the best 
efforts of those in the creditor agencies. Talking about 
reinventing government is frankly not enough. It is time for 
some follow-through.
    Second, agencies appear to be balking at some aspects of 
the Debt Collection Improvement Act. According to a draft 
report of the General Accounting Office, ``some agencies have 
expressed reluctance'' about transferring delinquent debt to 
the Financial Management Service. Congress worked long and hard 
on this new law, and we will work just as long and just as hard 
to see that it is properly implemented. The massive sum of 
uncollected non-tax debt makes it clear that agencies cannot 
continue to operate as they have in the past.
    The task of implementing the Debt Collection Improvement 
Act is complex. It requires cross-agency coordination. Everyone 
has a role: The Office of Management and Budget, the Treasury 
Department, and every Federal agency. Today, I hope we can hear 
how we are going to proceed with collecting debts, not with 
blaming each other. By my estimation, we have all failed to 
achieve our preliminary goals. We now look forward to the 
hearing and to future hearings on the Debt Collection 
Improvement Act, which I will state at this point will be 
scheduled every 6 months for the next several years.
    We have a quorum present, and I would like to call on Mrs. 
Maloney, the ranking Democrat, who was very helpful in the 
enactment of this legislation, for her opening statement.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.001
    
    [GRAPHIC] [TIFF OMITTED] 44176.002
    
    Mrs. Maloney. Thank you very much, Mr. Chairman. I am 
pleased that you are holding this anniversary hearing on our 
Debt Collection Improvement Act of 1996. As you know, I was 
very honored to play a major role in passing this bipartisan 
legislation last year, and I want to commend you, Mr. Chairman, 
on your leadership and your staff for all their hard work, and 
mine too for that matter. I would also like to thank the 
administration for their help and diligence which was 
instrumental in developing a comprehensive and effective new 
law. Since Mr. Summers is here from Treasury, I would like to 
note that Treasury was particularly helpful in their leadership 
on this legislation.
    Two years ago, I became extremely concerned that Congress 
was cutting vital programs that benefit millions of Americans, 
like Medicare, Medicaid and school lunches. I wanted to offer 
something positive to the American people.
    That's why I conducted a survey of 100 Federal Government 
agencies regarding their delinquent debt. These agencies 
responded that businesses and individuals owed more than $50 
billion in non-tax delinquent debt to the Federal Government 
and to the American taxpayers and that a mismatched hodgepodge 
of collection methods and procedures hindered the Government's 
ability to collect debt.
    As a result, we designed the Debt Collection Improvement 
Act to fix these problems. Our bill will force the cheaters to 
pay up through common sense debt collection tools like 
administrative, salary and tax refund offsets, governmentwide 
cross-servicing, TIN access and gain sharing. I am very proud 
of what we developed, and I am hopeful that this new law will 
help collect up to $10 billion in additional revenue over 5 
years; that's a lot of school lunches and that's a lot of 
police officers. To ensure that we reach our goals, I want to 
continue to monitor the administration's implementation of the 
new law. That's the purpose of our hearing today.
    But we must do more.
    Today, I would like to announce that I am drafting 
legislation that would collect even more delinquent debt, and I 
hope our distinguished chairman will join me so that we will 
have yet another successful piece of legislation out of this 
committee. My bill would improve communication between the 
Federal Government and State governments through a joint 
Federal-State partnership for the purposes of collecting 
delinquent debt from deadbeats. The legislation would prevent 
debtors from eluding the Government by allowing Federal 
agencies to match delinquent debtors with State employment 
information. Debtors would still have the same due process and 
hardship protections under current law.
    The need for this legislation was most eloquently described 
in a New York Times op-ed by the Massachusetts Commissioner of 
Revenue, Mitchell Adams, who is present here today and will be 
testifying later. Mr. Chairman, I would like to submit for the 
record the op-ed which he authored. Is that all right?
    [The article referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.003
    
    Mrs. Maloney. Let me give you an example of the problem the 
bill addresses. Under current law, if a person living in New 
York defaults on a Federal student loan from New York, the 
State and Federal Government can garnish the wages of that 
person to resolve the debt. However, if that person moves to 
work and live in another State, New York and the Federal 
Government can no longer garnish the student's wages or the 
employee's wages. That is because Federal law prevents it. My 
legislation would help the Government find that debtor.
    Mr. Chairman, I invite you to cosponsor this as the lead 
Republican and hope that we will be working together. We have 
been talking to you and your staff about it.
    This is an issue that I worked on for many years when I was 
a member of the city council. Every year I would do my survey 
of the debt that was owed the city of New York, and in fact 
authored a collections bill for the city of New York, and that 
bill never passed. So I don't know if that says it is easier to 
pass a bill in the U.S. Congress than in the city of New York.
    But in any event I think it is a fine example of the 
administration and the Republican and the Democratic party 
working together to really make government work better, to help 
bring moneys into the Treasury and to help us on our other 
major goal this year, that of balancing the budget, of bringing 
these revenues in. Any amount will help us reach that goal.
    I thank the chairman for his leadership in so many things 
and for this followup hearing today. Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] 44176.004

[GRAPHIC] [TIFF OMITTED] 44176.005

    Mr. Horn. Thank you very much. Now I am delighted to yield 
to the gentleman from Texas, Mr. Sessions.
    Mr. Sessions. Good morning, Mr. Chairman. Mrs. Maloney, it 
is good to see you. I am delighted to be here.
    I have somewhat of a background in debt collection. I was 
in charge of debt collection for Southwestern Bell Telephone 
Co., a 5-State region, for several years at the corporate 
headquarters level, and so I have some understanding, though 
some people would argue no expertise, in this area. But I am 
extremely interested and I am delighted to be here this 
morning, Mr. Chairman. Thank you.
    Mr. Horn. I want to say that understanding is a lot better 
than expertise.
    We are delighted to have you with us, Mr. Secretary. We 
have a tradition on this subcommittee and the full committee 
that all witnesses take the oath. So if you don't mind standing 
and raise your right hand.
    [Witness sworn.]
    Mr. Horn. The clerk will note the witness has affirmed and 
you may proceed in your own way. Obviously, we just saw your 
statement. We didn't have it before, so we are going to be 
looking at it very carefully as you speak. But feel free to 
take the time you need.

STATEMENT OF LAWRENCE SUMMERS, DEPUTY SECRETARY, DEPARTMENT OF 
                            TREASURY

    Mr. Summers. Thank you very much, Mr. Chairman, 
Congresswoman Maloney, distinguished members of this 
subcommittee. I am pleased to be here to talk with you about 
Treasury's plan to implement lasting solutions to difficulties 
the IRS has encountered. Later this morning, it is my 
understanding that Under Secretary Hawke and Assistant 
Secretary Murphy from the Treasury Department will testify 
along with Deputy Director Koskinen on the Department of the 
Treasury's actions to implement the Debt Collection Improvement 
Act of 1996. But let me say for my part that we in the 
Department regard this--the Debt Collection Act as a crucial 
initiative and one that we're working as hard as we can to be 
as constructive as possible in implementing. And I think that 
it is absolutely clear with the kind of cutbacks that 
Government is forced--Government in today's world--as we move 
to a balanced budget, to do everything that we possibly can to 
collect what is owed to us.
    That is a point that has resonance in the debt collection 
area. Frankly, it has resonance with respect to the IRS because 
I believe improving the IRS is important not just to serve 
taxpayers better, but also because we have a large tax gap 
which represents money that could otherwise be available to the 
Government to support lower tax rates, to support more 
effective public services.
    I would like to thank the chairman, the ranking minority 
member and other members of the committee for their leap in 
recognizing issues of information technology at the IRS and in 
particular, governmentwide, for highlighting, Mr. Chairman, the 
salience of the Y2K problem, which is something very critical 
that we are going to have to get through.
    Let me be very clear, the difficulties with information 
technology management primarily manifested by the troubled tax 
system modernization program are not fully behind us. Other 
serious problems have come to light, such as recent incidents 
of IRS employees browsing through tax records outside their 
assigned work. These kinds of problems deserve the utmost 
seriousness because the American people deserve an IRS that is 
responsive, efficient, and totally respects privacy. As 
Commissioner Richardson has said, the IRS may not earn people's 
affection, but it should deserve their respect.
    Today, I want to talk about some of the progress that the 
IRS has made under Treasury's oversight and in turn talk a bit 
about the administration's plan to provide the IRS with the 
framework for effective management. But before I do that, let 
me just highlight that this week we completed one of the 
rituals of our democracy, the annual filing season. The vast, 
vast majority of American citizens paid what they owed, and 
paid it in full. That voluntary compliance is a precious 
national asset for this country and one we must not squander.
    I want to thank the 100,000 dedicated and local IRS 
employees who have helped to make this filing season a 
successful one for the American taxpayers. Seventy-six million 
returns have already been processed; electronically filed 
returns are up by 25 percent; 36 percent more taxpayers--not 
enough, let me be clear, but 36 percent more taxpayers have 
been served by IRS employees over the telephone and tax law 
questions are being answered with 93 percent accuracy, up from 
90 percent last year. The IRS web site has received over 95 
million hits in this fiscal year, and I guess it is appropriate 
to quote a poll. The Associated Press in a recent poll found 
that 7 out of 10 taxpayers--that is 3 too few--gave the IRS a 
positive rating on its ability to handle returns and inquiries. 
This is progress. But we need to build much more on this 
progress.
    Last year, Secretary Rubin and I recognized in testimony 
before this committee and others that the modernization program 
was, as we put it at the time, off track. We called for a sharp 
turn and made clear our determination to energize Treasury's 
oversight to bring about change in the way IRS uses information 
technology and provides customer service. And there has been 
change. Specifically, we have appointed a new Associate 
Commissioner for Modernization and Chief Information Officer, 
Mr. Arthur Gross. Following his review of technology projects, 
we canceled or consolidated 26 programs into 9. Mr. Gross is 
sitting here beside me, and I want to acknowledge an exemplary 
job that he has done in getting hold of something that has been 
very--was very out of control for a very long time.
    We will be submitting a draft Request for Proposal for Tax 
Systems Modernization prime contractor to the Congress and to 
industry on May 15th, 10 weeks ahead of the required due date. 
On May 15th of this year, we will submit to the Congress an 
architectural blueprint which will clearly describe what 
modernization would and would not include and how the pieces 
will fit coherently together. We are exploring in other areas 
the possibility of outsourcing.
    Steps such as these are only the beginning. It will take 
time. Everyone involved in this process recognizes that 
problems at the IRS have developed over decades and will not be 
solved overnight or even over a couple of filing seasons. But 
as we chart our course, we see our job at Treasury as ensuring 
that there is effective and vigilant oversight so as to make 
sure that the IRS performs as effectively as it possibly can.
    Our approach to provide a framework for effective 
management at the IRS encompasses five critical areas. Let me 
say a word about each of them.
    First, oversight. We will consolidate the success to date 
of the Modernization Management Board, which has supported Mr. 
Gross in his cancellation of projects that were not as 
effective as they needed to be, by making it permanent and 
extending its mandate to cover the broad range of strategic 
issues confronting the IRS. This will continue to operate like 
the board of a troubled company with an outside chairman 
located in the Treasury Department and senior officials from 
other parts of Government. This is a crucial executive branch 
responsibility, and we plan to carry it out. We will also 
establish a Blue Ribbon Advisory Committee to bring private 
sector expertise to bear on the management of the IRS.
    Second, we look forward to working with the National 
Commission on IRS Restructuring, ably chaired by Senator Kerrey 
and Congressman Portman, as well as the Congress and the 
National Treasury Employees Union, to enhance and strengthen 
the IRS's ability to manage its operations, working in 
particular to improve management flexibility in personnel and 
procurement. No commissioner, no matter how capable, can do 
this job by him or herself. They need the flexibility necessary 
to make changes that can make the IRS a more effective 
organization. In return, we will hold senior management of the 
IRS, as in any well-managed business, accountable for results.
    Third, we will work with Congress to help the IRS get the 
stable and predictable funding it needs to operate more 
effectively. Frankly, Mr. Chairman, we operate now in a low-
trust, short-tether environment in which--in response to very 
real problems that there have been--Congress holds the IRS on a 
very short tether, changing the budget frequently in response 
to conditions. It is easy to understand that choice. But short-
tether budgeting for capital projects combined with the 
inability to amortize expenses over time makes rational 
planning almost impossible. It is very difficult to operate in 
a budgetary environment where increased resources are treated 
as a cost but none of the cash-flows that come back as a 
consequence of increased customer service or increased 
enforcement come back as benefits.
    Fourth, we will work to simplify the Tax Code that is now 
9,451 pages long. Earlier this week, Secretary Rubin announced 
some 60 simplification measures that will save individuals and 
businesses millions of hours now spent filling out tax forms. 
No longer if you were a paper boy with a $100 bank account will 
you be required to file a tax return. Ninty-five percent of 
corporations will be entirely separate from the alternative 
minimum tax.
    Finally, fifth, Mr. Chairman, leadership is crucial to 
performance. Commissioner Richardson has guided the IRS through 
some difficult times. As we move forward, though we are 
committed to appointing a new commissioner with a different 
type of experience than has been typical for IRS commissioners, 
a commissioner whose experience in either the public or the 
private sector equips them to address the problems of 
organizational change, customer service improvement and 
information technology management, as well as change in the 
business culture that are the preeminent problems at IRS right 
now.
    Mr. Chairman, I don't believe that for any of us involved 
in Government there is a more important challenge than making 
our national tax collection agency function effectively. 
Justice Holmes said that taxes are what we pay for 
civilization. Whatever our precise view of Government, whatever 
our politics are, we all, I think, agree that taxes need to be 
collected as efficiently, as nonintrusively, as fairly, and as 
fully as they possibility can.
    Thank you very much.
    [The prepared statement of Mr. Summers follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.006
    
    [GRAPHIC] [TIFF OMITTED] 44176.007
    
    [GRAPHIC] [TIFF OMITTED] 44176.008
    
    [GRAPHIC] [TIFF OMITTED] 44176.009
    
    [GRAPHIC] [TIFF OMITTED] 44176.010
    
    [GRAPHIC] [TIFF OMITTED] 44176.011
    
    [GRAPHIC] [TIFF OMITTED] 44176.012
    
    [GRAPHIC] [TIFF OMITTED] 44176.013
    
    [GRAPHIC] [TIFF OMITTED] 44176.014
    
    [GRAPHIC] [TIFF OMITTED] 44176.015
    
    [GRAPHIC] [TIFF OMITTED] 44176.016
    
    Mr. Horn. We thank you, Mr. Secretary. We are going to have 
questioning 10 minutes per person, and I know you have to be 
out of here by about 10:30. Let me start in. How long have you 
been Deputy Secretary?
    Mr. Summers. I was sworn in as Deputy Secretary in August 
1995.
    Mr. Horn. Since August 1995, how many hours a week do you 
give to IRS management problems?
    Mr. Summers. I would say that in the early part of the time 
that I was deputy, that I was Deputy Secretary, I had not come 
to a full appreciation of the seriousness of these problems. 
But following a fairly close effort to understand the 
situation, I have appreciated its gravity, and I would say that 
in the last few months there has probably been no single 
issue--no single other issue in the Department--that has 
occupied more of my time than questions relating to management 
and governance of the IRS.
    Mr. Horn. Well, since August 1995, are we saying 2 hours a 
week you have spent on it; 3 hours, 4?
    Mr. Summers. More. I would hesitate to give you an 
estimate, to give you a precise estimate, but I think as I say, 
in the last period, there hasn't been any other issue that I 
have spent more time on.
    Mr. Horn. In the 103d Congress, which was my first 
Congress, I happened to serve on Mr. Spratt's Financial 
Institutions Subcommittee of this Oversight Committee. We had 
the IRS before it and, on a bipartisan basis, we were concerned 
in 1993 that they were a basket case then, well-known to most 
people in town. And I guess the classic remark was made by Mr. 
Cox, who had hoped to be here this morning, the vice chairman 
of the full committee, when he said if a corporation turned in 
financials to IRS such as you just turned into us, you would 
have gone and probably turned over the case to the U.S. 
Attorney.
    Now, one of my concerns is your Assistant Secretary for 
Management that also ought to be involved in some of this--Mr. 
Munoz is also the Chief Financial Officer of the Treasury. I 
think that a role of Chief Financial Officer ought to be a 
full-time job, especially when you probably have the 
Government's prize basket case, and the only exclusion from 
that would be the civilian sector of the Pentagon, which 
borders a prize basket case and which will probably not be able 
to submit to Congress, as the law requires, this September a 
balance sheet. There are two agencies, IRS and the Pentagon, 
that will not be able to meet the requirements of law that was 
put out years ago on a bipartisan basis.
    So, are we going to get a chief financial officer that can 
pay attention to this or are we going to sort of put it off 
until the heat rises? We get a blue ribbon committee, they come 
into town. They are prestigious. They do a report, and the 
report gathers dust. We are down to crunch time. Are we going 
to straighten out that agency or not?
    Recently I wrote the President and said let's quit getting 
bright CPAs and bright tax attorneys--and I didn't say the 
following, but the following is obvious, that they all get a 
nice living after they go to Gucci Gulch and become lobbyists 
and all the rest--when do we get a commissioner that knows 
something about managing a large complex organization?
    I understand Secretary Rubin is concerned about that and 
that he has asked various leaders in the private sector to help 
advise him on a new commissioner. I think that is progress, and 
I hope we don't go the route of the tax attorney-CPA, no matter 
how much they like the job. You can get a million of those on 
the staff. What are we going to do about this focus of the 
Chief Financial Officer and the focus of being serious about 
management?
    Mr. Summers. Mr. Chairman, I have just submitted to you in 
my testimony that it is our determination to hire an IRS 
commissioner whose background equips them to take on the 
fundamental management challenges that are involved in work at 
the IRS, precisely because we share exactly your recognition 
about the kind of person that is appropriate to lead the IRS 
forward. We are deeply troubled by the difficulty in producing 
a financial report, and as we move forward here in the 
President's second term, in Treasury's own management area, we 
are strengthening in a variety of ways our capacity to provide 
oversight to the IRS and to ensure that it works to meet the 
appropriate deadlines.
    We share exactly the concerns that you are expressing, Mr. 
Chairman. That is why in my first testimony before the Congress 
after taking this responsibility, I recognized that the 
modernization program was way off track and indicated our 
intention to bring about change. I think the record of canceled 
projects, the record of meeting congressional mandates, the 
record of improved, though still flawed, service this year, 
bears out the fact that we are making progress on the sharp 
turn that we promised, though not as rapidly as any of us would 
like.
    Mr. Horn. Given the problems the Treasury faces in terms of 
management of the national debt, major budget problems, one of 
the key advisors to the President of the United States, so 
forth, should we simply have an independent agency? Get them 
out of Treasury, get a first-rate commissioner in there, get 
them independent of any even perception of political influence, 
which occurred as you know in violation under the Nixon 
administration and probably has occurred given Filegates under 
this administration.
    My query is, how much is the Treasury thinking about saying 
let's get this operation and start anew? Let's cut the 
corporate culture and the attitude there. Some are wonderful 
employees and, unfortunately, they aren't given a chance to be 
fully productive employees because of the lack of management 
and the lack of organization. Yet, there is also an attitude in 
that agency that maybe the customers are supposed to serve them 
instead of them serving the customers, and that bothers me.
    I found a lot of fine people in IRS. I think you have a 
superb congressional relations staff at Laguna Niguel that my 
district office deals with and a lot of good people, but we are 
not doing the right thing by them having such a fouled up 
management operation. Now should it be independent? What does 
the Treasury think about that? Are you even exploring it?
    Mr. Summers. Mr. Chairman, this is something that Secretary 
Rubin and I have spent a great deal of time talking about. It 
would be very easy for us to shirk this challenge by suggesting 
that the IRS should be independent. It would be much easier. 
But I believe, as I think Secretary Rubin does, that it would 
be a grave error for three reasons. First, the problem the IRS 
has had has been too little oversight, not too much. The IRS 
hasn't been held accountable. The IRS commissioner hasn't been 
called on to the carpet when there have been problems.
    The task of the executive branch should have been pursued, 
and it has had to fall to Congress, which is not well-
positioned to monitor management on a week-by-week basis. That 
is why we believe the answer lies in strengthened executive 
branch accountability, not weakened executive branch 
accountability. That is also why we have taken concrete steps 
to strengthen our own oversight of the IRS through the creation 
of a board modeled on the kind of board of directors that a 
troubled company has, with an outsider from the IRS--somebody 
who is in the administration but not a part of the IRS--as the 
chairman that has to approve major IRS strategic decisions. We 
believe taking on that accountability and assigning that 
accountability to some of the President's most senior 
appointments is the way to increase accountability. To isolate 
the IRS and make it independent would be to substantially 
undermine accountability and to make more serious the kinds of 
problems that we have. I believe it would be a grave error.
    The second reason why it would be a grave error, in my 
view, is that tax policy and tax administration are 
consistently intertwined. Tax policy has to be informed by a 
judgment about what is administratively feasible. Tax 
administration has to reflect policy concerns. Tax 
administration, for example, now has a substantial voice in 
policy deliberations as we work through things like the 
administration's tax credit proposal. If the IRS were 
independent from the Treasury Department, you would not have 
that kind of voice as tax policy was designed. It is only a 
matter of the senior most levels. The officials at the legal 
level in the IRS work closely with the Department's tax policy 
staff, and there are close links also between the IRS and the 
Department's financial management officials.
    Third, I believe that to invite a debate about IRS 
independence now would make it much more difficult to carry on 
the kind of progress that we are making. I believe that our 
oversight process has gained traction and is starting to bring 
about change. If we were to move to a discussion of what broad 
governance arrangements should be in the future, I believe that 
a period of limbo would inevitably result--the progress that we 
have made would be lost.
    Mr. Horn. Let me ask one last question here in my time, and 
that is why couldn't the modernization problems in that 
computing operation be caught at the $4 million level or the 
$40 million level and not have to wait to what I gather from 
press reports is a $4 billion level?
    Now having gone through this with the FAA, I wonder if 
there is a learning curve in the executive branch of the 
Federal Government? I mean, we went through this. We had the 
same problems with FAA. Everybody wanted their bells and 
Christmas tree ornaments and all of that on there when we ought 
to be trying to get a lot of this off, what corporations 
already do. And I can't believe the problems of IRS are that 
much more complicated than some of the complicated American 
corporations. I just can't understand why we can't say get that 
equipment and get it going, even if it is--and we know all 
computer software and hardware is--out of date the day you buy 
it, but to constantly think we can solve this problem on our 
own I think boggles the mind.
    I went through this as a university president. I determined 
one bright precedent: Do not be the alpha site. Be the beta 
site or buy down the road after people have taken the messes 
out of it.
    Mr. Summers. Mr. Chairman, we share your concerns. That is 
why we brought in Art Gross as Chief Information Officer, 
because he was from the outside and because he had a proven 
record of working with the private sector to accomplish 
outsourcing in his work in New York State. That's why we 
canceled or consolidated 26 projects that in many cases 
represented leaps that were beyond what we thought we were 
technologically capable of.
    That is why we suspended major project development, so a 
clear architecture laying out our plans can be presented. That 
is why it has been made very clear to everyone who is involved 
with the TSM project that henceforth we will be proceeding in a 
modular way to measure progress step by step and see what is 
working and what is not working. We are not going to wait for 
people to spend billions of dollars and then see whether we 
have the Taj Mahal or not. You are absolutely right in your 
concerns, and those concerns have informed the management 
approach we have taken for the last year and a half.
    Mr. Horn. I yield 10 minutes to Mrs. Maloney.
    Mrs. Maloney. I understand that Under Secretary Hawke and 
Assistant Secretary Murphy will testify for the Department 
today on the implementation of the Debt Collection Improvement 
Act. I will hold my questions until they are here. I just would 
like to convey to you my deep appreciation to the Treasury 
Department for how professionally and diligently you have 
worked to implement this act. They have truly worked hard. They 
have met every single timetable. They have come up with new 
ideas. Their paperwork is terrific, and you have a very strong 
group of professionals, and I have had the honor to work with 
them closely on this bill. I just want to publicly thank you. 
You may also know that the Secretary is from the great city of 
New York, I extend my regards. I will save my questioning for 
later witnesses.
    Mr. Horn. We thank the gentlewoman. The gentleman from 
Texas, Mr. Sessions, 10 minutes.
    Mr. Sessions. Thank you, Mr. Chairman. Mr. Summers, I am 
glad you are here and I am sure you did not anticipate this 
morning that you were going to get to come up here this morning 
and be beat up, but that is all right. So thank you for staying 
with us on these issues.
    I would like to, if I could, go back to some of your 
comments about how much time you're spending in oversight. Can 
you take a few minutes with me and tell me what the management 
tools are in place that you have found within the IRS that 
allow you the ability to then judge their progress or their 
weekly reports, monthly reports, in the debt collection? The 
older a debt is, the colder it gets, the harder it is to get 
it. How are you focusing your attention on the tools and the 
management tools and the report tools to where you then know in 
which direction to place your resources?
    Mr. Summers. Congressman, you have asked a very, very 
thoughtful question and I wish I had a better answer. Let me 
answer as honestly as I can. My role as Deputy Secretary is 
really to be the chairman of the board; as a kind of outside 
chairman of the board. In that capacity, at our monthly 
management board meetings, I do receive reports on progress the 
IRS is making in overall tax administration, the kinds of 
statistics that I had an opportunity to review briefly in my 
testimony; on the way in which the phones were being considered 
accuracy rates, extent of increases in electronic filing, 
progress with refunds and so forth. Also, I have an opportunity 
to review progress reports on the key projects in the TSM area, 
the development of the architecture moving to a prime 
contractor and so forth.
    Reporting to me is the Assistant Secretary for Management 
and Chief Financial Officer of the Department, who receives 
periodic reports on the IRS's progress in debt collection and 
also receives periodic reports on the financial statement 
problem at the IRS' keeping posted on the progress in those 
areas. But I'm not, myself, directly involved in evaluating the 
status of different debts or retargeting resources.
    I think the Department has been constructive in its 
oversight role with respect to that, although I think 
ultimately the responsibility in that area has to rest with the 
IRS Commissioner and the people the IRS Commissioner 
designates. I think the most effective approach we will have is 
getting a management-oriented commissioner, and then creating a 
kind of flexibility that will let that commissioner appoint the 
people on their team and then having them report to us 
periodically. But frankly, I don't think the responsibility of 
reallocating resources with respect to debt collection is one 
that we can sensibly undertake in the Department.
    I have, working with Secretary Rubin as we have, thought 
about staffing the whole management area at Treasury for the 
President's second term. A number of the appointments that we 
intend to make and the approach we intend to take to hiring is 
really directed at being able to bring, frankly, a greater 
degree of sophistication and relevant experience in other parts 
of the public sector or in the private sector to bear on 
overseeing the functions of the IRS.
    Mr. Sessions. Do you think that those people in the IRS are 
aware that you were today going to be up here talking about 
debt collection?
    Mr. Summers. In fairness, Mr. Chairman--Congressman, in 
fairness to them, while I'm aware that your overall hearing is 
on the subject of debt collection, the invitation that I 
received from the chairman was really to address some of the 
topics that I think you had also discussed on Monday, having to 
do with the overall IRS approach, so I was not asked to come to 
talk about debt collection.
    Mr. Sessions. That was my fault then. I would like to 
direct my questions to a comment that you made about having 
proper resources available, and that would have come under the 
third point that you made.
    Beginning in or about 1988, there was money that was 
allocated to the TSM project. I don't know if that's what it 
was called then, but the Congress has attempted to allocate 
resources, maybe some $4 billion. Can you talk with me in the 
limited scope that you have, because I know that you have only 
been there several years, about the realization of that 
problem, when you realized internally you were in trouble and 
how you were going to go about the TSM project?
    From my perspective, I would say that that is throwing 
resources at an organization that they just did not effectively 
use, and I am very reticent--it is a regular discussion up on 
the Hill about giving people more money when they don't 
properly utilize it. In this case, let's face it. We know we 
are dealing with the Tax Code, which Congress created, so we 
are giving someone else our problem. But can you briefly 
discuss that allocation of resources as it relates to TSM? Give 
us an update when you knew you had internal problems.
    Mr. Summers. Congressman, let me first say that in speaking 
about the question of the budgetary environment, I was careful 
to say that we operated in a low-trust, short-tethered 
environment because the IRS hadn't earned trust. When I spoke 
about more resources and I spoke about resources for a longer 
term, I was speaking about the need for us to earn the trust 
that would make that kind of provision of resources possible. 
Because I share your concern and that of most people up here, 
that until there is demonstration that resources can be spent 
well, they shouldn't be appropriated and allocated and they 
will not be sought. That is also reflected in the fact that the 
administration cut the budget for TSM by more than 75 percent. 
It cut our request for this year precisely because, given all 
the problems, we weren't sure the money could be used well. So 
we do not want resources for the sake of having resources.
    On the other hand, I think you can appreciate that even the 
best managers in the world, with their appropriation completed 
partway through the fiscal year, would have difficulty managing 
rationally. I think there has been an awareness for a long time 
in this town that there were problems with the TSM project and 
there were constantly statements that--well, there are problems 
but we are getting them fixed and that was this and now it's 
now and we have got to go into the future, and so forth.
    Frankly, when I inherited this situation as Deputy 
Secretary, my predecessor told me that it was something that 
was going to require attention because there were problems. I 
don't think I fully appreciated for a few months the gravity of 
the problems, but when I came to appreciate the gravity, 
working with Secretary Rubin, we did what I think were the 
right things.
    First, we testified that the thing was way off track; 
second, we indicated that we were determined to bring in 
outside help; third, we indicated that there was a need for a 
change in the strategic concept toward much more use of the 
private sector; and, fourth, we made clear that we wanted to 
plan before we build instead of building before we planned, and 
therefore, that it was crucial that an architecture be 
developed along the lines of GAO recommendations; and fifth, we 
indicated that the steps going forward had to be modular in 
nature because we couldn't take the risk of sitting back and 
waiting for several years to see whether something worked or 
not, given how much money had been spent.
    We also tried to account as accurately as we could for the 
money that had been spent. And I will say to you, Congressman, 
that I don't think I've minimized the problems here today, but 
I think that some of the reports that suggest that somehow $4 
billion was wasted really do represent substantial 
exaggerations. We didn't get everything we wanted out of those 
expenditures and there were $4- or $500 million, which is $4- 
or $500 million too much, that went for projects that have been 
discontinued. However, it is also true that a lot of equipment 
was modernized, many capacities were obtained, and the fact is 
that 4.5 million Americans were able to file their tax returns 
without ever coming in contact with pencil and paper simply by 
pushing buttons on a telephone, was a factor of the TSM 
project. We are increasing the use of electronic filing by 35 
percent. That too is a reflection of the TSM project. Phone 
inquiries are being handled in a better way. That too is a 
reflection of the TSM project.
    So it is off track. It was not managed the way it should 
have been. There were a lot of mistakes made, but I think to 
call it a $4 billion waste is to exaggerate a problem that is 
serious enough that it doesn't have to be exaggerated to get 
people's attention.
    Mr. Sessions. Well, let me just say this, that you are the 
first person that I have ever heard not characterize that as a 
$4 billion mistake, and I am using what is often well described 
as a $4 billion mistake. So this is not my characterization, 
and I'm interested that you disagree with that.
    One last question: The Y2K project as chairman of the 
board, do you think your organization has a handle on that?
    Mr. Summers. I think we are--I couldn't tell you that we've 
got a total handle on it. What I can tell you is that we've 
recognized it. We are moving on it. We have dimensioned the 
problem in our core business and have put in place strategies 
for addressing it, and we are dimensioning the other parts of 
the problem outside of our core systems and making decisions. 
In some cases it may be better to abandon systems than to try 
to update them for the Y2K project outside of our core business 
systems. That's the judgment that is being made. But what I can 
assure you of is that this is recognized as a stay-in-business 
issue, and that the IRS is one business that has to stay in 
business.
    So it's seriousness is fully appreciated and I am sure we 
look forward to, and I'm sure in any event we will be asked to, 
report periodically to Congress on the progress that we are 
making and on the extent to which this problem has been 
dimensioned. I will say to you that I think experience in the 
private sector and in the public sector is that the more you 
know about it, the more you know there is a problem here. And 
then I think I have made it very clear to the people who are 
involved, following Secretary Rubin's lead, that we need to be 
very, very careful about underestimating the magnitude of this 
problem and we need to be able to face up to it in full. There 
is a situation like when you are at the airport and the planes 
aren't flying and they change it from 8:30 to 9:30 and what 
that really means is that for sure it won't go before 9:30 and 
maybe at 9:30 it will become 10:30 and at 10:30 it will become 
noon.
    I think there are dangers of the Y2K problem taking on that 
kind of character, so we need to be very careful to qualify the 
estimates that we give, to recognize that other things will be 
discovered, and to recognize that, you know, there are a lot of 
deadlines that can slip in this town but January 1st is not one 
of them.
    Mr. Sessions. But as chairman of the board of this 
organization, you feel like you have put your attention to it?
    Mr. Summers. Yes. Yes, absolutely.
    Mr. Sessions. Thank you so much, Mr. Chairman.
    Mr. Horn. I thank the gentleman from Texas for his fine 
questions. I have just two and then you will be free. In your 
thinking through of what a new IRS ought to be, to what extent 
have you thought about using private debt collectors to collect 
IRS debt? Now, the background on this, what started me in this 
whole endeavor 2 years ago, was when I looked at what there 
were of financials and saw that over $100 billion had been 
written off since 1990, started under the Bush administration, 
but greatly accelerated in 1993. And then I saw there was 
another $64 billion they thought was collectable.
    When I talked to Commissioner Richardson in my office, I 
said what operation do you have to collect the 64, let alone 
the 100, which I think is a national scandal, and there was 
great reluctance to even think about private debt collectors. 
In our bill we have a role for private debt collectors. I heard 
a lot of nonsense about confidentiality, and so forth. It is 
nonsense. Give them the number and give them the address and 
tell them to go out and find it and work out something, and 
that is better than having $100 billion written off.
    So what is the thinking of the leadership of the Treasury 
as to what should be done in either a joint partnership where 
IRS might have the first 30 days, but they simply aren't 
getting in the money, and the private collectors's role?
    Mr. Summers. Following the legislation, we have moved to 
create a private debt collection pilot project to evaluate 
this. It's being done at the IRS Service Center for the Western 
Region. It involves five contractors who were chosen last June. 
The IRS provides selected cases to the contractors for 
collection activity. Those are cases where the IRS has been 
unable to locate or contact taxpayers or where the IRS has been 
unable to secure payment through written notices and phone 
calls. To respect obvious sensitivities, the IRS has suspended 
cases where there has been taxpayer hardship, those were not 
given over to the collection agents.
    The private collection agencies are paid a fixed price for 
each successful contact when they locate somebody and also 
performance fees when they are able to fully close or establish 
an installment agreement. The pilot project as I say, has been 
underway since June, and it was a 1-year pilot and we will, 
after a year, evaluate the results, make a judgment about what 
the consequences have been and be prepared to report to 
Congress.
    Mr. Horn. Maybe I am misinformed, but someone told me that 
in that pilot project was a lot of 5-year-old debt to be 
collected; is that true?
    Mr. Summers. I don't know.
    Mr. Horn. Well, 5-year-old debt, they have long since 
forgotten about it is my point. It seems to me that we should 
have a better balance of that.
    Mr. Summers. We certainly would be wrong to only refer to 
this project debt of a kind that was particularly difficult to 
collect and then compare performance with overall debt 
collection. That would certainly be wrong.
    Mr. Horn. You get the point.
    Mr. Summers. The instructions----
    Mr. Horn. It is made to fail.
    Mr. Summers. Clearly there were concerns about this 
project, but we have given a very strong instruction to the IRS 
and I will ask for a report that this pilot project be carried 
out in good faith and we all attempt to evaluate the results 
from it. And I would be very concerned if anything was being 
done that was undermining the objective of doing an honest 
pilot.
    Mr. Horn. Last question. How much concern does the 
Secretary or the Deputy Secretary have about the fraud GAO has 
found in the earned income tax credit? Are you worried about 
that? This is one of the greater fraudulent programs of 
America. People are adding dependents that don't exist and all 
the rest of it. What are the plans of the Treasury to do 
something about it?
    Mr. Summers. This is a very serious problem. It is, I 
think, important to understand that it is a problem that 
parallels the broader problem we have of tax noncompliance, 
people claiming false deductions, people claiming losses that 
they didn't have, and it occurs also in the EITC area. I don't 
think the EITC area stands out uniquely. We are continually 
working and I expect--I am not able to do it this morning, but 
we will be in a position to describe measures we are taking to 
increase penalties and to increase detection of these incidents 
because clearly this is something that is very, very important 
for us to do everything we can to discourage.
    I would highlight that the ratio of administrative costs to 
benefits delivered in the EITC is extremely low compared to 
that of many, many other Government programs, and it may well 
be necessary to take further steps to address this problem 
because I think it is a serious one.
    Mr. Horn. Well, I appreciate that, and if you might work it 
out with our staff and your staff, maybe we can get a little 
elaboration in the record at this point.
    Mr. Secretary, I appreciate you taking the time to come up 
here. I know you have a busy schedule.
    Mr. Summers. Thank you very much for the opportunity, 
Congressman.
    Mr. Horn. You have done a fine job testifying and we wish 
you well.
    Mr. Summers. Thank you very much for the opportunity, 
Congressman.
    Mr. Horn. Thank you.
    We now have panel two, Commissioner Mitchell Adams of the 
Massachusetts Department of Revenue. Mr. Adams.
    I don't know if you were in the room, Mr. Adams. The 
tradition is to swear in all witnesses, so if you would raise 
your right hand.
    [Witness sworn.]
    Mr. Horn. The clerk will note the witness has affirmed the 
oath.
    It is a great pleasure to have you here. You were kind 
enough to call me, I think, when this act took effect and say I 
had made your day, so I am anxious to hear how I have made your 
year in the process, and I know you are doing a lot to collect, 
as I remember, for the dead beat dad department. You were on 
that issue long before the President or anybody else had talked 
about it, so we look toward to hearing your testimony and what 
progress has been made by you as a State that has set a real 
model in this area.

   STATEMENT OF MITCHELL ADAMS, COMMISSIONER, MASSACHUSETTS 
                     DEPARTMENT OF REVENUE

    Mr. Adams. Thank you, Chairman Horn and members of the 
subcommittee. It is a pleasure for me to be here this morning. 
I would like to talk a little bit about how we collect debts in 
Massachusetts and the experience in the Department of Revenue, 
and also make some comments about studies in work we have done 
in the area of defaulted student loans.
    Massachusetts Department of Revenue has fully downsized 30 
percent in the last 5 years. We have reduced the size of the 
institution from 2,100 people down to 1,500 people. While we 
have done this substantial downsizing, all of the performance 
measures at the Department of Revenue are up substantially, 
that is, collection of delinquent taxes is up significantly, 
assessments are up, refund turnaround time has been improved 
significantly, and the waiting time to reach a human being on 
our telephones, even at peak tax time, is now zero.
    There are primarily two factors which contribute to this. 
First we have used information technology aggressively across 
the board essentially to convert the Department of Revenue from 
the paper factory that it has been into a center of digital 
technology to the point now where I am happy to tell you we 
have the reputation of being one of the most advanced tax 
agencies in the country, possibly in the world, in terms of 
information technology. The other factor is access to 
information. The Department of Revenue is the agency appointed 
under Federal law to collect quarterly employment data from all 
employers in the Commonwealth and so we are able to keep a data 
base, which is up to date and current, that has information 
with regard to all individuals who are on any payroll in the 
State.
    Second, we have a program that we call ``bank match,'' and 
I think it is maybe unique in the United States, whereby every 
financial institution and money market mutual fund has to 
report to the Department of Revenue quarterly with regard to 
all accounts that may relate to individuals who owe a tax 
obligation or child support debts.
    Let me just make a comment--listening to Under Secretary 
Summers this morning, if I could, as a tax person, make the 
comment--that they are on the right track here. I think for the 
first time in a while we are seeing some progress here. They 
have a real CIO in Arthur Gross, whom I have met with. They 
have been to Massachusetts to see our imaging systems. They are 
on the right track in terms of outsourcing.
    The only way for governments really to do a good job in 
obtaining computers is to get the private sector to put them in 
place. They have a blueprint for planning, and they have 
determined for the first time in a long, long time what they 
need to run the place is a manager.
    Back to my point, just for a moment.
    Let me give you an example of the standard way that 
collection has occurred in tax agencies in the past and child 
support enforcement operations. It is the standard one by one 
method of collecting a tax or a child support obligation where 
you have a collector who is after one individual, and that 
person, the collector, may determine that the person has--works 
at Acme Rug Co., or whatever it is down the road, they type up 
a wage attachment, put it in the U.S. mail and attach the 
person's wage in that fashion. We don't do it that way anymore.
    We take a magnetic tape that has 100,000 child support 
obligors on it and we match it against our data base, which has 
3 million listings of all the people employed in the 
Commonwealth, and wherever the computer finds a match, zap, it 
makes a wage attachment. It is automatic and it is done without 
human intervention, essentially.
    To the point now--two-thirds of the $270 million a year we 
collect in child support comes from automated wage attachment, 
fully, two-thirds.
    Let me turn now for a moment to a related but different 
subject, and that is the matter of defaulted student loans. I 
am referring to the Federal Government programs, the guaranteed 
student loan programs.
    In Massachusetts, we did a study about a year ago in which 
we took the listing of defaulted student borrowers in the 
State, it was a listing of about 30,000, and we did this 
automatically. Of course, we had a magnetic tape and we matched 
it against a wage reporting data base in Massachusetts, that is 
the data base with 3 million employed individuals, and what we 
found was that 53 percent of them had paying jobs in 
Massachusetts. Further, our analysis indicated that if an 
automated wage attachment were undertaken with regard to those 
defaulted student borrowers, that would increase the annual 
amount of money collected from defaulted student loan borrowers 
by about 25 percent.
    The study further looked at what else is going on in the 
United States, and we found that two States, and to my 
knowledge only two States, are doing this. Illinois and 
Pennsylvania have similar programs where they can do automated 
wage attachment programs, and 25 percent of their defaulted 
student--income from defaulted student loans comes from the 
automated program.
    Nationally, our study indicated, and this is what the 
conclusion of the op-ed piece that Congresswoman Maloney was 
referring to, if this program were instituted nationally, it 
would increase collections from defaulted student borrowers to 
the extent of about $650 million a year. That would provide 
additional tuitions for about 100,000 students.
    What is necessary to make this happen is the guarantee 
agencies in all of the States, and the Department of Education, 
must have access to the employment data that I referred to that 
is available in Massachusetts, and what we need to do is create 
a Federal statute that will make that information available as 
quickly as it can be, because the sooner that is done, the 
sooner the system will have access to about $650 million of new 
money for student education.
    Thank you very much, Mr. Chairman. I am happy to address 
any questions you may have.
    Mr. Horn. Well, we thank you very much. You have had a 
splendid record before this law was passed, and I am glad to 
see you have used some of the things in the law and your record 
is still upward.
    [The prepared statement of Mr. Adams follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.017
    
    [GRAPHIC] [TIFF OMITTED] 44176.018
    
    [GRAPHIC] [TIFF OMITTED] 44176.019
    
    [GRAPHIC] [TIFF OMITTED] 44176.020
    
    [GRAPHIC] [TIFF OMITTED] 44176.021
    
    [GRAPHIC] [TIFF OMITTED] 44176.022
    
    Mr. Horn. Mrs. Maloney I know has some questions, and I 
yield 10 minutes to her.
    Mrs. Maloney. Thank you.
    Congratulations on your pioneering successful efforts. You 
are familiar with our proposed legislation. If it becomes law, 
how will it help out the individual States?
    Mr. Adams. With regard to defaulted student loans, I think 
it is very important that it happen, and it will mean that 
substantial funds will be generated by the Department of 
Education and the guarantee agencies that can be used to 
support educational programs.
    Mrs. Maloney. How do delinquent debtors hurt the Federal 
student loan program?
    Mr. Adams. I think in a lot of ways. No. 1, substantial 
resources that could be made available are not made available. 
No. 2, it really does damage, I think, to the overall program 
because there is a perception--I mean, all of us know of people 
who default on their student loans, and it doesn't make 
taxpayers feel good when they know that others scoff laws and 
fail to meet their responsibilities. I think it dampens the 
enthusiasm of Congress to support the programs.
    Mrs. Maloney. You have estimated in your testimony that 
correcting the problem the bill we are working on addresses, 
would bring in $625 million annually in additional payments, 
enough for tuition for 100,000 more students yearly.
    How did you come up with that calculation?
    Mr. Adams. The calculation was essentially based on the 
evidence which indicated that, if you do an automated wage 
garnishment program, you will increase the annual amount that 
comes from--collections from defaulted student borrowers by 
about 25 percent. That is what the analysis showed in 
Massachusetts, and that is what the analysis showed in the 
State of Illinois and in the State of Pennsylvania as well. I 
believe they are the only States that have active programs 
going where they can have computerized wage garnishment.
    They have access to the data we have talked about, and the 
reason they have access to it is a little bit of an anomaly. 
They have access because their State legislatures have passed 
laws saying that the State agency that collects the employment 
data may share it with the guarantee agency in that State, but 
only that guarantee agency; it is not available to other 
States.
    Mrs. Maloney. Did your study take into account the benefit 
of being able to track debtors across State lines?
    Mr. Adams. No, it really didn't, and to that extent, I 
think the $625 million is conservative. I think there is more 
money there for that reason.
    Mrs. Maloney. And you note that 53 percent of defaulters 
had jobs in Massachusetts. If the law were changed, wouldn't 
you be able to find the other 47 percent, no matter where they 
lived?
    Mr. Adams. A big portion, you are absolutely correct. Those 
people are working, many of them, in neighboring States.
    Mrs. Maloney. Now, Massachusetts is able to garnish the 
wages of everyone employed in the State through automated 
computer processing. How much does the State generally garnish 
and what are the legal limits, and how long did it take you to 
develop the necessary technology to be able to support this 
process?
    Mr. Adams. The technology at this point in time is not 
rocket science, it is not leading edge, it is pretty easy to 
do, and it is, as far as information technology, and as far as 
administrative burden, it is close to de minimis. It is pretty 
easy to do.
    Mrs. Maloney. Then why aren't other States doing it if it 
is so easy?
    Mr. Adams. We have been kind of bold in Massachusetts in 
sort of going for it, and as near as I can tell, and I believe 
this is true in child support enforcement, we began to do this 
aggressively in 1993, and the limits you were asking about are 
prescribed by law, basically.
    What you can do is garnish, I am forgetting how the rules 
work, but it is up to a certain percentage of the paycheck.
    Mrs. Maloney. And how much did it cost you to put into 
effect this program, and have you estimated how much collection 
costs could possibly drop or increase with this program?
    Mr. Adams. I don't have numbers with me right now, and I 
certainly could get back to you with some analysis, but I don't 
have them right now.
    But I would like to say that really what you are talking 
about here is so highly automated right now and we are so far 
beyond the point where computer systems don't talk to one 
another, that the administrative costs are not significant.
    Essentially, what you are talking about is a tape match, 
and if you do a tape match and you find that in one data base 
there are matches with another data base, and then all you have 
to do is perform the software, create the software necessary to 
get the computer to dispatch the appropriate letters and due 
process and so forth, or wage attachment or whatever it is, it 
is not complicated nor is it expensive.
    Mrs. Maloney. Are you familiar with the Debt Collection 
Improvement Act, which the chairman and I worked on together 
and enacted into law with the administration last year?
    Mr. Adams. I am generally familiar with it. However, it 
goes far beyond the area of my focus. I should know more about 
it.
    Mrs. Maloney. If you have any suggestions for improvement, 
we would be delighted to look at them.
    And I just want to say, I want to congratulate you, Mr. 
Adams, on your pioneering effort and the significant progress 
Massachusetts is making in the area of debt collection. You are 
leading the Nation in your efforts and your expertise, and I 
applaud you.
    I yield back the balance of my time.
    Mr. Horn. I thank the gentlewoman.
    Remember in our chat when this law was signed by the 
President, you were planning to match the tapes, I thought, 
outside the State of Massachusetts. Now do we not have the 
authority for you to do that in terms of matching the 
employment tapes or does that authority exist somewhere in the 
Federal Government?
    Mr. Adams. No, that is the problem, it doesn't exist.
    Mr. Horn. It doesn't exist.
    Mr. Adams. We have the legal right to do that in 
Massachusetts.
    Mr. Horn. Right. OK. When you did the garnishment, did you 
need additional authority from your own legislature or did you 
already have that as a basic existing authority in the 
Department of Revenue?
    Mr. Adams. With regard to child support, it exists by 
virtue of Federal law. With regard to tax obligations, it 
exists by virtue of State law. In defaulted student loans, I 
believe, and I think people in the room here who might know 
better than I, that any guarantee agency, by virtue of Federal 
law since 1991, has the legal right to administratively garnish 
wages, that is, without the action of a court.
    Mr. Horn. Are there any suggestions that you would make to 
the Secretary or the Deputy Secretary of the Treasury, and the 
IRS, as to management of the agency? Have you ever looked at 
their structure versus the Department of Revenue and 
Massachusetts, or other State tax agencies? What are the things 
that strike you between the two? I realize you have to get 
along with everybody here, so I know you have to be diplomatic, 
but I would like to know just what are your feelings as a 
professional as to how such an agency should be organized.
    Mr. Adams. I was really taken with Deputy Secretary 
Summers' comments. Most of the initiatives that he is talking 
about taking and that they have taken are really a significant 
new start and they are on the right track.
    Arthur Gross comes from the State of New York, as I think 
you may know, and is a first rate professional, and that 
really, I think, is the first time they have had someone at 
that level from outside of the agency to take a good look at 
how it really ought to be done, and he has not been shy in 
being very clear and public about where it has fouled up and 
how it has to be changed.
    Their conclusion that they have to put significantly 
greater emphasis and outsourcing for information technology 
expertise is absolutely right on the point. They are doing a 
planning effort and blueprint, I understand. I guess it hasn't 
been released yet, but the understanding that you have to do 
the planning before you do the implementation is pretty basic. 
And then the leadership question of someone from a management 
background instead of a CPA or a tax lawyer is absolutely 
vital, and it is not a tax matter, it is a management matter.
    Mr. Horn. All right. Well, thank you. I yield 10 minutes 
now to the gentleman from Texas, Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman.
    Mr. Adams, thank you for being here today. I have just a 
few questions. I found that your annual report is quite 
interesting and I would like to direct some of my comments to 
that annual report, if I could.
    On page 18, you talk about offers in financial settlement. 
Can you please discuss with me, because it became--if you were 
here before when the discussion about how old these debts are 
that the Federal Government is working on, I note that you 
collected what would be about two-thirds of the money from 
these settlements that are listed here.
    Can you discuss with me how old these are, what that 
process is?
    Mr. Adams. Sure. Some of those are quite old. I don't have 
exact information. The process is one in which there is an 
agreement with the taxpayer to settle the obligation for less 
than the full amount, and it is a process which, No. 1, the 
attorney general of the Commonwealth has the right to void the 
proposed agreement within a 21-day period of time, and, No. 2, 
it has to be made public in that report. It is a low volume 
part of our operation. In other words, it is not a significant 
amount. The settlements are made because we conclude that it 
really is not feasible to get the full amount, and so it is an 
agreement for something else.
    Mr. Sessions. How early in the process do your managers of 
the business make that evaluation? I guess what I am trying to 
get at is there anything I can learn from you--a two-thirds 
collection rate is probably pretty good and I know we are only 
talking about a handful of accounts, but do you make an 
evaluation into this process early on, a case manager, a 
financial manager, in order to get the money? I mean, the----
    Mr. Adams. These settlements are really ad hoc and they are 
all kind of a one-on-one kind of situation, and the taxpayer 
comes to us and makes an offer, mainly.
    Mr. Sessions. So these probably are old accounts.
    Mr. Adams. They are old accounts, yes.
    Mr. Sessions. All right. Sir, I sit on the Banking and 
Financial Services Committee, and several weeks ago, I had an 
opportunity to talk with Chairman Greenspan about bankruptcy 
matters in this country, and I am seeing a trend, not only in 
the amount of money in bankruptcy, but trying to make an 
evaluation of the process, in other words, when a person takes 
bankruptcy, Chapter 7, Chapter 11, Chapter 13.
    Can you give me any feedback from your managerial 
experience in Massachusetts, is the Federal law and that 
bankruptcy process having an impact on you? And do you see a--I 
would like your overall evaluation of that because I think that 
at some point you are having to look at that with the money you 
collect.
    Mr. Adams. I am really not able to be helpful right now. It 
is not a significant issue for us right now and I wish I could 
make a helpful comment, but, honestly, I can't.
    Mr. Sessions. I applaud you for your efforts.
    Mr. Chairman, that is the extent of my comments. And, sir, 
I apologize, but I have another appointment and I will be 
leaving.
    Mr. Horn. OK. Thank you very much for your helpful 
questions.
    Commissioner, let me just ask, do you report directly to 
the Governor?
    Mr. Adams. I have a joint appointment between the Governor 
and the Secretary of Administration and Finance.
    Mr. Horn. I see, because you heard my question, probably, 
should the IRS be an independent agency? Do you have any 
feelings as you look across the country at State commissioners 
of revenue, as to how is an effective way to set up such a 
revenue with collection and administration entity?
    Mr. Adams. My belief is that all of them--none of them is a 
separate entity. I think I am right in that.
    Mr. Horn. So they are all somewhere related to either the 
Governor, directly, as a separate entity, would also be related 
to the President, just as the National Science Foundation, the 
National Aeronautics Space Administration. These are all 
independent agencies. They can't just do anything they want. 
They have to go to OMB for policy direction, management, so 
forth, budget examination.
    But I am just wondering what the practices were, if we can 
pursue it at the staff level, and what your thoughts were on 
that.
    Mr. Adams. Well, with regard to the States, I believe that 
all of them are simply a part of the executive.
    Mr. Horn. Right, reporting to the Governor.
    Mr. Adams. Yes, absolutely. That is my understanding.
    Mr. Horn. In some States, they obviously could have a super 
cabinet Secretary.
    Mr. Adams. Right.
    Mr. Horn. Do you have any other advice for us as you listen 
to this discussion this morning?
    Mr. Adams. I really don't.
    Mr. Horn. Well, I will tell you, Commissioner, yours is the 
best report I have seen in any Government agency anywhere, 
State, local, national, in terms of easy readability, and I 
would like it to be in the record at this point, if we can 
reproduce these things, which is dubious in the Federal 
Government, but that is a marvelous report.
    Did you win any awards from any State society? You should 
have.
    Mr. Adams. Thank you.
    [Note.--The Massachusetts Department of Revenue Annual 
Report may be found in subcommittee files.]
    Mr. Horn. Well, we thank you very much for coming. Your 
testimony and your administration of the law, as it applies to 
the State, has been most helpful. We do hope the Ways and Means 
Committee will get a matching legislation, they say they want 
to, that relates to our bill. That is the one piece missing and 
it is the piece that got me going in this thing. Anyhow, we 
thank you for coming.
    Mr. Adams. Thank you very much.
    Mr. Horn. We now have panel three, and panel three, Mr. 
Koskinen, Mr. Hawke and Mr. Murphy.
    As you know, gentlemen, maybe you want to move down. If you 
will raise your right hands, gentlemen.
    Mr. Horn. Mr. Koskinen, I take it you affirmed that, too.
    Mr. Koskinen. Yes.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note all three witnesses have 
affirmed.
    We will start with Mr. Koskinen, Deputy Director, Office of 
Management and Budget.

    STATEMENT OF JOHN KOSKINEN, DEPUTY DIRECTOR, OFFICE OF 
                     MANAGEMENT AND BUDGET

    Mr. Koskinen. Thank you, Mr. Chairman, and distinguished 
members of the Subcommittee on Government Management, 
Information, and Technology. I am pleased to appear before you 
today with the Treasury Department, which is responsible for 
implementing many of the core provisions of the Debt Collection 
Improvement Act.
    With your permission, I will summarize my prepared 
statement and submit my complete testimony for the record.
    Mr. Horn. All of the statements are put in automatically.
    Mr. Koskinen. Thank you.
    I must apologize in advance, as I explained to your staff 
last night when we established this hearing, we scheduled my 
testimony at 9:30 and I must leave for another engagement at 
11:45.
    Mr. Horn. Don't worry, we will have plenty of time.
    Mr. Koskinen. I have been here before and I know how long 
we go sometimes.
    Mr. Horn. Right. I have to catch a plane at 3, so that is 
fine.
    Mr. Koskinen. I am sure the next panel feels much better.
    The Debt Collection Improvement Act was signed into law 
almost 1 year ago. It was a result of a bipartisan effort in 
Congress to reform the management of Federal nontax 
receivables. The administration appreciates the leadership and 
efforts of the chairman and the ranking member of this 
subcommittee in obtaining passage of this act. Your sponsorship 
was instrumental in giving agencies modern management tools for 
their credit programs and other nontax receivables.
    The management of Federal credit programs is basically the 
responsibility of each agency. However, a major tenet of the 
act is that when agencies work together to prevent and collect 
delinquent debts, loan recipients and taxpayers will benefit, 
and public confidence in the Federal Government's management of 
cash and loan assets will increase. Since enactment, the Chief 
Financial Officers' Council and the Federal Credit Policy 
Working Group have been monitoring the implementation of the 
act. As chairman of these interagency groups, which were 
instrumental in developing the act, I think it is clear that 
the Treasury Department and the major debt collection agencies 
are making real progress in implementing the act.
    The rate of implementation varies by agency, due to 
differences in program requirements and operational issues. 
However, there is no question agencies are committed to working 
together in using the authorities in the act.
    Our experience--not unlike the private sector or the State 
of Massachusetts, from which you just heard--is that a debt 
that is delinquent for more than 1 year is uncollectible 
without the use of special collection tools such as offsets, 
referral to private collection agencies and litigation. In 
1996, more than $3 billion was collected through offsets, 
private collection agencies, and litigation.
    The act significantly improves the ability of the 
Departments of Treasury and Justice, along with loan making 
agencies, to maximize collection of delinquent debts by 
ensuring quick action, such as sharing payment and collection 
information between agencies when an account is over 180 days 
overdue. Also, agencies have a range of new tools for improving 
credit collection and performance. In the President's 1998 
budget, several of these tools were highlighted as 
administration management priorities.
    First, we need to obtain higher recoveries on delinquencies 
within enhanced payment offset. Next, we are focused on 
lowering the cost of program administration. The act encourages 
agencies to use the private sector to contact delinquent 
debtors as well as private attorneys to support Justice 
Department litigation enforcement of past due claims. A new 
governmentwide contract to acquire private sector debt 
collection services is nearing completion by the Treasury 
Department.
    We also need to take advantage of the authority for 
gainsharing for increased collections. The act allows agencies 
to keep up to 5 percent of any increase in their collections 
and to use the funds on improved credit management and debt 
collection. The Small Business Administration, the 
Environmental Protection Agency, the Department of Health and 
Human Services, and the Federal Emergency Management Agency are 
piloting this authority, and their requests are included in the 
President's 1998 budget.
    Finally, we are focused on the need for coordinated and 
expedited asset sales. The act encourages agencies to sell loan 
assets when the Federal Government will benefit financially. 
Both performing and nonperforming loan assets have been sold 
successfully by Federal agencies. The Federal Credit Policy 
Working Group has formed a subcommittee to identify successful 
loan sales practices and to assist agencies that are 
considering asset sales.
    The challenges to speedy implementation of the act include 
organizing and training personnel, revising procedures, issuing 
new regulations, notifying debtors, upgrading systems, and 
modifying reporting requirements. The need to upgrade and 
enhance systems is proving to be the most challenging obstacle, 
especially for interagency debt collection system requirements 
that must be synchronized to track and report on referred 
accounts.
    Most agency systems will require some modification to 
identify debt to be referred to Treasury for offset. During the 
next year, the Office of Management and Budget, working closely 
with the Chief Financial Officers Council and the Federal 
Credit Policy Working Group, will continue to support 
interagency efforts to improve receivables management 
information systems.
    In a time of fiscal constraint and tightly budgeted staff 
resources, Treasury and the major receivables management 
agencies face many operational and systems challenges. The 
development of the governmentwide approach to receivables 
management is a formidable task. We look forward to continuing 
to work with you and the Congress in meeting these challenges 
and implementing this significant legislation.
    Mr. Chairman, that concludes my summary.
    [The prepared statement of Mr. Koskinen follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.023
    
    [GRAPHIC] [TIFF OMITTED] 44176.024
    
    [GRAPHIC] [TIFF OMITTED] 44176.025
    
    [GRAPHIC] [TIFF OMITTED] 44176.026
    
    Mr. Horn. I think I am going to, given your time situation, 
start in on the questioning with you and then we will hear the 
Treasury officials after that.
    As I looked at the testimony, and I read a lot of it last 
night--I did not have your statement at the time--I am reminded 
of my favorite television show, which is ``Yes, Minister and, 
Yes, Prime Minister,'' which hasn't been broadcast in this 
country much lately, but it stops the House of Commons whenever 
it is broadcast in England, and the leading civil servant in 
that great show is Humphrey Urbane, sophisticated and running 
circles around the political appointee. May I say, and I am 
sort of reminded here that everybody is saying we have done a 
wonderful job but we haven't collected very much, and Humphrey 
would say, Mr. Minister, we agree with this in principle, but 
nothing is happening.
    Now, that is what worries me here. Let me read you a quote. 
It is passed anonymously to the committee:

    As the Financial Management Service provided technical 
assistance to agencies, the Office of Management and Budget 
took the lead to ensure implementation of the Debt Collection 
Act of 1982 in the follow-on measures, and we are of course one 
of the follow-on measures. OMB has little role in the Debt 
Collection Improvement Act and the Financial Management Service 
lacks implementation muscle due to its lack of budgetary 
authority.
    Federal agencies do not have an incentive for compliance 
with the Debt Collection Improvement Act. Most agencies will 
resist sending accounts to Treasury and the loss of the debt 
collection function, thus, defending their turf.
    OMB supports the Debt Collection Improvement Act but the 
program examiners who exercise the muscle in OMB are not 
involved. This neutralizes OMB in the face of strong agency 
resistance and sets Treasury up to squabble with agencies and 
get little accomplished.

    What is your reaction to that?
    Mr. Koskinen. Perhaps as Humphrey might say, I think your 
anonymous source is all wet. OMB is noted in that source as 
strongly supportive of this act. The agencies are strongly 
supportive of it. This is not an act imposed on the executive 
branch by the Congress.
    As you will recall, this is an act that was generated by 
the agencies themselves working together as the Federal Credit 
Policy Working Group, and the CFO Council, along with the 
Inspectors General who had done studies beforehand. This was an 
act that the agencies were seeking to give them more authority 
to allow them to more effectively collect on their debt. So 
this act was received enthusiastically by the agencies when it 
was passed.
    Mr. Horn. Well, it was received by the people who were 
concerned in finance and in budget, but has it soaked down 
through the system to the actual working program officer that, 
one, signed off on the loan and maybe doesn't want to really do 
much about collection? I think of the Department of 
Agriculture, and this is true of most agencies, true of many 
congressional authorized committees, that people in the 
Department of Agriculture--their mission is to help farmers, I 
understand that, I grew up on a farm, and tears come to my eyes 
when foreclosures occur on farms--so as this percolates down 
through the system, how are the program people implementing it? 
Do they really much care about collection that is hurting some 
of the friends, in some cases, in the same communities that 
they live?
    Mr. Koskinen. First of all, the Federal Credit Policy 
Working Group is program officials of the departments, as well 
as their finance people. And they worked with this jointly from 
the start of this matter. Second, with regard to incentives, 
the Federal Credit Reform Act requires that subsidy rates take 
into account the actual performance of the credit program. So 
there is, built into the Credit Reform Act and the calculation 
of the subsidy rate, an incentive for agencies to collect on 
their loans and not have losses any greater than necessary.
    Also, as noted, and you, Mr. Chairman, were a strong 
supporter of it, the agencies are provided incentives in the 
sense that they are allowed to keep up to 5 percent of 
increased collections to improve their collection efforts. 
Again, a provision that was strongly sought by the agencies and 
received with enthusiasm.
    With regard to the OMB program examiners, we have a working 
group within OMB of program examiners, working on these 
matters. The meetings of the Federal Credit Policy Working 
Group are attended by the relevant programming examiners. The 
President's budget, as I noted, has improvement in debt--in 
collection and credit program management as its highest level. 
One of the directors, Director Frank Manes--management 
objectives for this year is to improve credit program 
management and debt collection. So I think there is no shortage 
of enthusiasm, but I will also say this is not an easy issue to 
implement overnight.
    As noted, and you will hear from other agencies, a major 
obstacle is making sure the systems are able to provide data 
effectively, but as you will note in the Agriculture Department 
testimony, for instance, with reference to your note, they in 
fact already are referring debt to the Treasury Department. 
They have previously used many of the authorities available 
under the act, under special provisions, and no one has been 
more enthusiastic in working with us on this act than the 
Agriculture Department.
    Mr. Horn. Well, that is good to hear.
    By the way, Secretary Hawke, if you want to get in on this 
sometime.
    Mr. Koskinen. That's right, you guys can chime in any time 
you like.
    Mr. Horn. I am just trying to help John get out of here to 
his next commitment.
    Mr. Hawke. I think the Minister is doing fine.
    Mr. Horn. I suspect you are correct on that.
    In your capacity, Mr. Koskinen, chairman of the President's 
Council on Integrity and Efficiency, could you commit to making 
auditing for implementation of the Debt Collection Improvement 
Act a part of the next annual audit plan for agencies which 
have substantial delinquent debt?
    Mr. Koskinen. You will be happy to know I cannot speak on 
behalf of the Inspectors General in terms of how they do their 
work. I do chair the committee and work closely with them, but 
each Inspector General has to set its own work plan. They are 
independent in that respect.
    On the other hand, as I noted, this is an area that they 
have previously expressed interest. Their report on our debt 
collection activities in the agencies was a major resource for 
the Federal Credit Policy Working Group, and I would expect in 
the major credit program agencies that these would continue to 
be monitored.
    I would also note we have been working for the last 2 
years, even before passage of the act, with the Federal Credit 
Policy Working Group on the development of performance measures 
for credit programs. The Government Performance and Results Act 
requires agencies generally, and departments, to have strategic 
plans which state not only their goals and objectives, but 
their performance measures. Again, in terms of incentives, I 
think as we get greater visibility about what is happening with 
these programs, we will have program managers and political 
officials, as well as ministers, interested in ensuring that 
the programs run effectively and efficiently.
    Mr. Horn. Have any agencies referred to the Treasury, are 
there any debts for cross servicing since enactment of the Debt 
Collection Improvement Act?
    Mr. Koskinen. I will let the detailed answer be provided by 
Mr. Murphy.
    My understanding is a number of agencies have already begun 
to transfer debt to the Treasury, but I think Mr. Murphy can 
give you more details.
    Mr. Murphy. Yes, there are 12 agencies that have referred 
some cases to us already. The numbers are not staggering, but 
the system is just getting up and running and it is starting to 
happen. We have two agreements with other agencies, as to they 
are starting to refer debts to us, and we are still working 
with others as they try to overcome some of their system 
problems to get ready to do so.
    Mr. Horn. That leads to my next question. Currently, as I 
understand the figures and correct me if this is in error, 
Federal agencies have transferred a mere $28.6 million, that is 
million with an ``M,'' to the Financial Management Service for 
collection action out of the total of delinquent nontax debt of 
$51.3 billion, that is billion with a ``B,'' or slightly better 
than $1 out of every $1,800 of delinquent debt owed the Federal 
Government.
    My query to the Deputy Director for Management is does OMB 
intend to do anything to increase referrals of delinquent debts 
to the Financial Management Service?
    Mr. Koskinen. As Mr. Murphy, Mr. Hawke, and I noted in our 
testimony, we think the process is beginning. It is 
complicated. We do not detect any reluctance by the agencies to 
make the transfers. And we are working and continuing to 
oversee this. We are measuring the progress they are making. We 
fully expect that when the Treasury's offset program is up and 
running full scale in January, by that time, there will be 
several billion dollars referred to either the Treasury or 
other debt collection centers.
    Mr. Horn. I might add that the General Accounting Office 
informs us that the agencies are very reluctant so they are 
getting one word and you are getting the words because people 
like to please you, and the question is, what are we going to 
do about it? And my next question has to do with the role of 
the budget examiners, are the budget examiners making this a 
major item in the things they ask when budgets come before 
them.
    We also have a Government Performance and Results Act. Will 
this be the collection of debt, one of the things that the 
government across the board, with OMB direction? Is this a 
result to measure what kind of agency you are?
    Mr. Koskinen. The short answer is yes, we are working 
across all those frontiers. We expect, that, in the major 
credit agencies, the performance of their credit programs will 
be a significant part of their strategic plans. The testimony 
you have or will receive from the Department of Education, IG's 
office, shows that the Education Department has put debt 
collection as part of its strategic plan. We expect that the 
Federal Credit Policy Working Group and CFO Council will 
continue to report on performance on debt collection as we go 
forward.
    As I noted, this is a high priority in the President's 
budget. It is a management priority of the director, and the 
program examiners are participating actively with the agencies 
directly through the Federal Credit Policy Working Group.
    Mr. Horn. OK. So the program director, I assume, is the 
budget examiner, in the old days?
    Mr. Koskinen. In the old days; they are now program 
examiners.
    Mr. Horn. Fine. But they are going to make this part of 
their review of all agency budgets?
    Mr. Koskinen. Yes.
    Mr. Horn. OK. In the agency's response to the 
subcommittee's inquiry to the largest Federal agencies, there 
was scant interest among the agencies in conducting an asset 
sales program. As the successful experience that HUD indicated, 
this can be an effective way to deal with agency receivables. 
Is there a way to build an incentive for agencies to manage 
their receivables in this manner?
    Mr. Koskinen. Yes, it is an important initiative. In my 
more detailed statement, I reference the fact that we have had 
two substantial presentations at the Federal Credit Policy 
Working Group on this. There is now a support group working 
with the Small Business Administration which is for the first 
time going to be engaging in significant asset sales. They are 
going to draw upon the expertise, not only of HUD, but of the 
FDIC and other agencies, that have had asset sales. What we 
hope to do is develop a more effective and aggressive program 
over time.
    There has been a pilot program called the government-owned 
real estate sales program run by GSA and the Treasury 
Department, which again has been a way of trying to pool asset 
sale expertise. We expect that this will improve and there will 
be significantly more sales over the next 12 to 24 months.
    Mr. Horn. My understanding is that the agencies are also 
not very excited about selling delinquent debts, even after the 
agency has given up collection action, which they are required 
to do.
    Do you have any thoughts on agency reluctance in this 
regard? What can OMB do about it?
    Mr. Koskinen. The act provides after 180 days, unless the 
debtor actually meets some specific statutory exemptions, it 
has to be referred to a debt collection agency or the Treasury 
Department for active collection.
    We expect there will be, as I noted, more loan sales. 
Ultimately, the incentive for the agencies is if a loan sale is 
financially more beneficial to the Government than holding, 
which is often the case, that will result in a lower subsidy 
rate and more funds available for that program. So if we can 
get people to understand that connection, I think they will be 
increasingly supportive of the importance to the Government of 
maximizing a return from these assets.
    Mr. Horn. One or two last questions and you are a free man 
this morning.
    According to Mr. McNamara's testimony, which we will have 
later, a match was performed between the IRS income records and 
students' Pell Grant applications, over $100 million in grants 
went to individuals who had lied and understated their income. 
This, to me, is rather remarkable. If this is a problem in one 
program area, can we expect similar deceptions are incurring in 
the programs of other agencies? What are OMB's ideas to solve 
the problem?
    Mr. Koskinen. We have been focused on this issue for some 
time. As you know, income verification is at the height of a 
wide range of Government programs, not just credit programs, 
but grant programs, and other issues as well. It is important 
for us to ensure that the limited Government resources are 
actually being applied and made available to people who qualify 
for them.
    There are, on the other hand, obviously substantial 
interests and concerns about individual privacy in terms of 
what information is available. But in terms of my touting here, 
the Federal Credit Policy Working Group, at our recent meeting, 
there was a discussion by different agencies of what they do 
for income verification, and it was noted that you can, in 
fact, ask applicants to waive privacy of their Internal Revenue 
Service records. So that, in fact, it's possible for grant 
recipients and loan recipients to voluntarily waive, if they 
want to apply for a program, any access to IRS records, which 
would allow you to make that match. I also think it is an 
important initiative to ensure, as we go forward, that we are 
making loans to, in fact, qualified people.
    Mr. Horn. Do we really need an amendment to the law to say 
that would automatically be done when you are up for a Federal 
loan? I assume this is the Buckley Act or what are we thinking 
of on the Privacy Act.
    Mr. Koskinen. There is a privacy act issue there. At this 
point, I am not aware of the need for legislation. As I say, we 
are pursuing the level of--the need for this. We think it is an 
important initiative and if there is a need for legislation, we 
will certainly advise you of that.
    Mr. Horn. Well, I just suggested to staff that we need to 
get this on the list of things to do because it is silly to sit 
in a student aid office and say, well, student, will you give 
me access to your income filing.
    The Government is giving out taxpayers' money to people to 
get an education. If they are lying, we shouldn't have to find 
out 5 years down the line or something; we should find out 
right then and there who is conning whom and deal with it, I 
don't know why we have to have a lot of paper on people signing 
some Privacy Act, to, in essence, commit a crime, and that is 
what we are perpetuating right now. So I would think we need 
legislation on it, rather than go down the Privacy Act route, 
just do it.
    Now are you prepared to have OMB say it or is there some 
great myth here that all students are honest?
    Mr. Koskinen. And I don't think our experience is that. At 
this point, as I say, we are looking into it. We are not 
prepared at this time to state whether or not legislation is 
needed.
    Mr. Horn. When will you be done looking into it?
    Mr. Koskinen. We don't have a time line.
    Mr. Horn. Yes, that does sound like Humphrey. Let's keep on 
it. We will expect a conclusion to be raised on this and we 
will raise the issue with you in a letter and exchange. Let's 
get an answer on it, because we ought to change that. This is 
crazy, to pour money down drains when we can check an income 
tax record. Maybe they are lying there, too, at which point we 
have other problems, and we will hope in the reorganization of 
IRS, it provides for that type of investigation.
    OK. We have met your need to go somewhere else. We are glad 
to have you come, and we appreciate your support of this act. I 
hope in the 6-month hearing we will hold 6 months from now 
there will be substantial transfers of delinquent debt to one 
of my favorite agencies, which is the Financial Management 
Service. They seem to get things done in a very efficient, 
orderly way, but they can't do it if they don't have the 
agencies send them the base material with which to operate.
    Mr. Koskinen. I appreciate your cooperation here this 
morning, Mr. Chairman. Let me conclude by saying that we have 
been extremely pleased with the efforts of the Treasury 
Department and the Financial Management Service in implementing 
this act. As Mr. Murphy's testimony notes, they have held 
training sessions, and they have worked very closely with the 
agencies on trying to improve the systems and facilitate the 
progress. I think that at this point we are confident that the 
program will work effectively under their leadership.
    Mr. Horn. Well, we thank you very much.
    And now Secretary Hawke, please. I am sorry for the delay 
in your testimony.

STATEMENT OF JOHN D. HAWKE, JR., UNDER SECRETARY, DEPARTMENT OF 
                            TREASURY

    Mr. Hawke. Thank you, Mr. Chairman.
    Mr. Horn. I want to accommodate people when I can.
    Mr. Hawke. Thank you, Mr. Chairman. I am delighted to be 
here today and to have this opportunity to discuss the 
Department's actions to implement the Debt Collection 
Improvement Act.
    First, I would like to thank you, Mr. Chairman, and the 
ranking minority member, Mrs. Maloney, for your strong support 
of this legislation and the work that you have put in to get it 
passed.
    The DCIA, through the establishment of new and improved 
debt collection tools, has redefined how Federal agencies 
should collect their delinquent debts. The provisions of this 
act will make Government debt collection more efficient and 
effective, resulting in improved fiscal integrity of the United 
States while preserving the due process rights of our citizens 
and treating debtors fairly.
    This legislation had strong support in Congress and the 
executive branch because improving Government processes, making 
government more efficient, and saving taxpayers money, make 
good sense. The development of the legislative language 
contained in the act, the enactment of law, and the 
implementation of its provisions represent Government at its 
best.
    Above all, this legislation represents a Government 
commitment to those millions of citizens who pay debts to the 
government in a timely and responsible way. The message that we 
send to them is that we will respect their integrity and 
conscientiousness by making every reasonable effort to assure 
that others who owe money to the Government discharge their 
obligations as well. We owe it to all of our citizens to make 
clear that the Government will act prudently in assuring that 
it recovers amounts that are due to it. To do less would be to 
send a very unfortunate message to those that have financial 
obligations to the Government.
    Mr. Chairman, we at the Treasury have supported this 
legislative initiative from its onset and we are committed to 
its success. We are hoping our testimony today will assure you 
of our commitment.
    When the legislation was initially being considered by the 
Congress, more than $51 billion of the $245 billion of 
nontaxable receivables owed to various program agencies was 
delinquent. Most of this debt was related to direct loans, 
defaulted loan guarantees, and various other forms of accounts 
receivable from Government operations.
    At the end of 1966, the nontax receivables owed to the 
Federal Government had increased to $252 billion, with $51.3 
billion of that amount, that is 20 percent, or $1 in $5 owed to 
the Government being delinquent. I think it is interesting to 
note, Mr. Chairman, that this amount is almost half of last 
year's budget deficit of $107 billion.
    Mr. Horn. Right.
    Mr. Hawke. Delinquent receivables over 1 year old 
constitute 83 percent of the total, indicating that $4 in every 
$5 of delinquent debt is old and may be difficult to collect. 
Debts of this age are typically collected at the rate of only 
25 cents on the dollar in the private sector.
    Without strong commitment and cooperation across 
Government, from the Federal agencies, the Office of Management 
and Budget, Treasury, and every congressional committee that 
has a hand in, in the process of authorizing funding and 
providing oversight of programs that create debt, the volume of 
delinquent debt is likely to grow. If we are to get the 
delinquencies to a level that is considered tolerable, we must 
fully implement the provisions of the act and we must use them 
in each and every program.
    We are heavily invested in showing Treasury can make a 
difference in this process. After all, every dollar that is not 
collected is a dollar that we will be responsible for borrowing 
to finance the Federal Government.
    Between April 1996 and September 1997, a 17-month period 
since the passage of the act, we will have invested a 
substantial amount of resources into the DCIA and laying the 
foundation for its future operations. This was made possible 
through close cooperation between OMB, Treasury, our 
congressional appropriators, and through the ability of the 
Financial Management Service to find funds and resources in 
budgets that are already very tight.
    In this short time, we have built a governmentwide 
delinquent debtor data base, and we have already begun 
offsetting payments, albeit not in great magnitude, as the 
chairman has pointed out. We also built a basic debt management 
work-flow system to cross-service and collect delinquent debt 
that is over 180 days old through collection at FMS or through 
private debt collectors.
    Since the passage of the act last April, our efforts have 
been intense and they will continue unabated. Next year we will 
be able to report to you that all the Government's eligible 
payments are subject to being offset; that all accounts over 
180 days delinquent are being properly serviced; that all 
agencies are using the debt collection contracts in situations 
where Treasury and the agencies agree that they should; and 
that all of the needed regulations are in place.
    Mr. Chairman, that concludes my remarks. Jerry Murphy, our 
Fiscal Assistant Secretary, who is far better able than I am to 
discuss the details of the program will now discuss the FMS 
implementation of the active agreement.
    Mr. Horn. Well, thank you very much.
    [The prepared statement of Mr. Hawke follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.027
    
    [GRAPHIC] [TIFF OMITTED] 44176.028
    
    [GRAPHIC] [TIFF OMITTED] 44176.029
    
    Mr. Horn. Secretary Murphy.

    STATEMENT OF GERALD MURPHY, ASSISTANT FISCAL SECRETARY, 
                     DEPARTMENT OF TREASURY

    Mr. Murphy. Thank you, Mr. Chairman. I also have a longer 
statement for the record but I will just briefly summarize the 
accomplishments. I appreciate this opportunity to discuss our 
role in the implementation of the Debt Collection Improvement 
Act.
    Within the Department of Treasury, the Fiscal Service, and, 
specifically, the Financial Management Service that you 
mentioned a while ago has the responsibility of the debt 
collection provisions of the act, and we embrace those 
responsibilities with enthusiasm because we are uniquely 
qualified to accomplish that mission, and we strongly believe 
in the purpose and the goals of the legislation.
    I'll skip to some key results because I think there has 
been a lot that has been accomplished that is sometimes being 
overlooked by some of the numbers.
    We are actually conducting disbursing official offsets 
right now. We have an interim system to do that, and it was 
built quite quickly. The act, of course, provides the 
disbursing officials of the United States, with the authority 
to conduct administrative offsets to collect delinquent debts 
that are over 180 days old. We have developed the operational 
computerized system to effectuate those offsets. It was 
operational back in September 1996, and we began offsetting 
payments at that time.
    While the numbers on cross-servicing aren't too high, we 
have about 2 million cases referred to us for offset, and they 
represent close to $9 billion worth. We are also merging the 
two offset programs, the Internal Revenue Service tax refund 
offset program is going to be merged into the FMS offset 
program effective January 1, 1998. And while that may not sound 
like a big deal, it's a lot of work, believe me.
    We are also going to be merging the salary offset program, 
which has existed for a number of years, into the Treasury 
offset system. Even though some of these things haven't 
happened yet, it doesn't mean that people aren't out there 
collecting debts because that salary offset system is out there 
and they are using it--collectors that they are using and tax 
refund that they are using. So money is coming in.
    We are also, as I mentioned earlier, doing some cross-
servicing of debt. Agencies that have debts of more than 180 
days old are supposed to be taking appropriate action to 
collect those claims or to refer them to Treasury for 
appropriate action.
    You mentioned the $51 billion in delinquent receivables. 
That's true. There are a number of exceptions in the law, as 
you know. If they're currently being referred to Justice for 
litigation or to a private collector they can be offset 
internally within 3 years, et cetera. There are a number of 
those $51 billion that will never be referred to Treasury or 
the debt collection center necessarily.
    We have set up a debt collection center within the 
Financial Management Service in our Birmingham office, and we 
are open for business and we are working with agencies to get 
that business in. We understand that the agencies do have a 
number of things that have to be done before they can 
participate. We believe that they are working on those so that 
schedules can be agreed to when debts will actually be 
transferred.
    We have also done a lot to inform people, provide guidance, 
and train our employees. We held 17 conferences between August 
and December of last year around the country to get to as many 
people as we could, not only just in Washington but in the 
field offices around the country, where a lot of the real work 
is done.
    We've visited virtually every agency individually to work 
with staff and provide them the information that they need. We 
established a home page on the Internet. We have a lot of debt 
collection information on there, and we are getting anywhere 
from 500 to 3,000 hits on the home page every month. People are 
interested in this. They want information. They're trying to 
get the job done.
    We've also worked on drafting a host of regulations. Those 
regulations cover a wide range of provisions in the act, and 
the majority of those will be published for comment in May or 
June. We have a couple of others that will come along in July 
or August for comment. So we have a lot of regulations in the 
mill. We've had to work jointly with a number of agencies on 
those. We've worked with Justice Department, for example, and 
the Department of Education on the wage garnishment draft regs. 
We worked with Justice on the Federal claims collection 
standards. We've consulted with other agencies on the various 
regs as well.
    We've also worked on the new governmentwide debt collection 
contract, and that's in the procurement process. The request 
for proposal went out in March, and we expect to get bids on 
that beginning the first of May.
    We are developing a public awareness campaign to inform the 
public, at first in a general way, about the need to repay 
their debts, and later in a more specific way. But the first 
public service advertisements on that will start appearing on 
radio and TV sometime in June.
    Finally, I would just briefly mention our efforts to 
improve the collection of delinquent child support. You will be 
hearing more on that later from HHS, who we have worked along 
with the States to implement the President's Executive Order 
13019. And there, again, a cooperative effort between Treasury, 
HHS, and the various States in partnership have been working to 
resolve a host of due process issues, systems issues, 
regulatory issues and other operational issues.
    Working together, we have succeeded in resolving many of 
those. We are still working on some. But we have four States 
and the District of Columbia who have already issued notices, 
and we will be offsetting beginning in May for those States. 
Other States have systems problems they will be coming on a 
little later. We would expect to have them all participating by 
January 1998.
    And internally, I'll just close by mentioning that we've 
taken a number of steps organizationally to make sure that DCIA 
receives high priority. And these include reorganizing within 
the Financial Management Service, setting up a brand-new 
assistant commissioner area for debt management services. We 
established the debt collection center in our Birmingham 
office. We've increased staff from 17 to 65 and are still 
adding some, and we are committing to providing the resources 
necessary to implement all provisions of the act. This past 
year, we made significant investments in DCIA.
    You mentioned the $20 million. That is our upfront 
investment in systems. I believe it also is our estimate as to 
what we will spend between now and the end of September, so we 
haven't spent all of that quite yet. You also mentioned that we 
had only collected some $300,000. That's true. That's the 
offset amount we received the first 3 months we had the system 
up, reflecting the $2.8 million from all of our tools.
    Those investments that we incurred this year, however, I 
really expect are going to be paying dividends in the coming 
year. In the coming year we're going to be adding more debts 
and more payments into the offset system. We will be providing 
training and guidance for agencies so that there's a seamless 
transition from the tax offset program to the Treasury offset 
program. We are going to continue to enhance our computerized 
debt collection management system. We expect to award the 
competitive debt collection contract this summer. And we'll 
have increased use, I think, of the collection contract and 
improved collection rates from that.
    There are a number of regulations, as I mentioned, and 
those will also be published in the coming months, as well as a 
rollout of our public awareness campaign.
    This is a big partnership arrangement, working with all the 
Federal agencies and working with the 50 States. But I think we 
are going to be showing some measurable results in the 
following year.
    Mr. Chairman, that concludes my remarks, and I'd be pleased 
to address any questions that you might have.
    [The prepared statement of Mr. Murphy follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.030
    
    [GRAPHIC] [TIFF OMITTED] 44176.031
    
    [GRAPHIC] [TIFF OMITTED] 44176.032
    
    [GRAPHIC] [TIFF OMITTED] 44176.033
    
    [GRAPHIC] [TIFF OMITTED] 44176.034
    
    [GRAPHIC] [TIFF OMITTED] 44176.035
    
    [GRAPHIC] [TIFF OMITTED] 44176.036
    
    [GRAPHIC] [TIFF OMITTED] 44176.037
    
    [GRAPHIC] [TIFF OMITTED] 44176.038
    
    [GRAPHIC] [TIFF OMITTED] 44176.039
    
    Mr. Horn. Well, thank you both for that very thorough 
testimony, I appreciate it. I did have a chance to read both of 
your statements last night.
    Let me just note at this point I'd like to put in the 
record the letter from Secretary Rubin addressed to me dated 
April 14th, it is the summary of the major efforts made by 
Treasury to improve Federal debt collection and implement the 
Debts Collection Improvement Act. So this will be, without 
objection, part of the record.
    [The letter referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.040
    
    [GRAPHIC] [TIFF OMITTED] 44176.041
    
    [GRAPHIC] [TIFF OMITTED] 44176.042
    
    [GRAPHIC] [TIFF OMITTED] 44176.043
    
    [GRAPHIC] [TIFF OMITTED] 44176.044
    
    [GRAPHIC] [TIFF OMITTED] 44176.045
    
    [GRAPHIC] [TIFF OMITTED] 44176.046
    
    [GRAPHIC] [TIFF OMITTED] 44176.047
    
    [GRAPHIC] [TIFF OMITTED] 44176.048
    
    Mr. Horn. Simply one question comes from that, and that is, 
what steps has the Treasury not taken which will prevent the 
referral of debts for administrative offset or cross-servicing? 
Are there a few key things in this letter, and since I assume 
you prepared it and he signed it. Brooks Hayes, the great 
Congressman and raconteur, said that there are two types of 
people in this town, one who prepares letters that other people 
sign and one who signs letters that other people prepare. I am 
curious in those categories, administrative offset or cross 
servicing, what is missing? Anything?
    Mr. Murphy. Basically, I think we had a lot of provisions 
in the act to try and deal with, and we've been trying to deal 
with them all simultaneously, but we have set some priorities 
and our priorities were in the offset program, the cross-
servicing and the debt collection contract. At this point, I 
don't think there are any things that we have done that have 
substantially hindered the process. In the offset area, we 
started a very small operation where we had just a few agencies 
and a few payment streams we were matching up. We are in the 
process now of adding vendors to the offset program, and we 
hope to have 15 million of them in that matching process by 
August.
    The next step is to fold the salary offset program into the 
Treasury offset, but we'll keep the existing one going so it's 
available and being used until we get the new one up and 
incorporated. One area that you might characterize as something 
we haven't accomplished yet is we don't have the regulations 
out as yet to offset benefit payments. So benefit payments will 
not begin offseting for some time yet.
    Mr. Horn. Could you give us an idea; 6 months; 3 months?
    Mr. Murphy. The benefit payment regulation is scheduled to 
be published for comment in July, and our target for getting a 
final regulation on the street would be October 1997. That 
would cover the offset of Social Security, railroad retirement 
and black lung, for example. And as you know, there are some 
limitations on those, where you don't conduct an offset unless 
the recipient is receiving at least $9,000 a year in benefits 
and then you only offset a reasonable amount from any excess. 
So those are going to be a little more complicated, but that's 
our general timeframe.
    Mr. Horn. Very good.
    Let me just ask you about the relationship with GSA. 
General Services Administration's purchase requisitions and 
travel cards will be accepted by millions of vendors, and we 
just sent through the House legislation to really require the 
travel card for most Federal employees unless certain 
exceptions are made by the administrator.
    Would it be possible to incorporate an administrative 
offset feature if the Financial Management Service and the 
General Services Administration worked together on this area? 
Do you see any room there for that relationship?
    Mr. Murphy. Yes, sir, we are discussing that right now, as 
a matter of fact. We do want to move to the use of credit cards 
extensively in Government. We think it's going to be very cost 
beneficial. We have expressed some concerns about the ability 
to build in some kind of process whereby we could at least 
periodically determine whether vendors are escaping offset 
because they are accepting credit cards which doesn't seem to 
be fair and proper. We are also working with the GSA to see 
what kind of solutions we might come up with that are 
reasonable and cost-effective.
    Mr. Horn. Did you happen to hear Commissioner Adams' 
description of his automatic wage garnish system?
    Mr. Murphy. Yes, sir, I did.
    Mr. Horn. Is Treasury planning to build a similar system?
    Mr. Murphy. I'm not sure whether it will be a similar 
system but basically in the wage garnishment area, the act 
gives the agencies the authority to use wage garnishment and I 
think they're very excited about the prospects of that being a 
very effective tool. Treasury is required to issue regulations, 
and our schedule for that is to try to get regulations out for 
comment in June. We have been working with the Department of 
Justice and the Department of Education on those. We are in 
favor of almost anything that collects more money, because we 
are the collectors.
    Mr. Horn. Good attitude. Good attitude.
    Mr. Murphy. I will mention, though, that my understanding, 
and I think Mr. Adams' point, was that, in order to collect 
something by wage garnishment, you have to know who the 
employer is so that you can garnish.
    Mr. Horn. Right.
    Mr. Murphy. And there are a number of data bases available 
that from a collector's point of view. It would be very nice if 
we could tap into that information so we can do matches.
    Mr. Horn. Now, is there a problem in the law that you can't 
access Social Security tapes or Labor tapes, given various 
things, because if it is----
    Mr. Murphy. It's my understanding that there are a host of 
both Federal and State laws that restrict the availability of 
information, the Privacy Act. Certainly, IRS has its 
limitations. It is not allowed to disseminate that information 
for purposes other than tax collection. Social Security has 
some very explicit exceptions in their law as to who they can 
give out information to.
    I believe that some of these employment records that are 
available out in the States are probably the States' tax 
records, and I believe Mr. Adams said that he thought those 
would be subject to State law. Obviously, some States are 
willing to disseminate information for certain purposes.
    Mr. Horn. Well, as I remember in the Debt Collection 
Improvement Act, both Labor records and Health and Human 
Service's parent locator service were specifically authorized.
    Mr. Murphy. That's correct, sir.
    Mr. Horn. So what's missing?
    Mr. Murphy. I believe the sources of information that Mr. 
Adams was referring to--I haven't been able to verify this, but 
my assumption has been that he's talking about State tax 
records. He's the State revenue collector. He has those records 
available to him in his State, and I believe he has indicated 
that a couple of the States have made them available.
    Mr. Horn. Do we need a law that permits Treasury to access 
the State records in terms of employment? Because you get 
certain things on the State revenue and Federal revenue. We 
need to know--maybe you want to think that through and let us 
know, because the Ways and Means missing piece here hopefully 
will come in the next few months and we can work it into that 
bill.
    Mr. Murphy. We would be happy to do that. We are certainly 
interested in using the tools. I think what you'd have to weigh 
are some of the privacy rights as well.
    Mr. Horn. Yes, and I think that ought to be in order when 
you owe money so the rest of us taxpayers do not pay more for 
the deadbeats. The Federal Government writes off between $8 
billion and $18 billion in non-tax debts each and every year--
and you have heard me on that subject a number of times--much 
of which has not been subjected to collection action. And I 
notice with interest, Secretary Hawke, you noted the role for 
private collectors there.
    Does the Department of the Treasury believe these debts 
ought to be included in the administrative offset, and other 
collection activities? Are agencies referring such debts?
    Mr. Hawke. It seems to me, Mr. Chairman, that any debt that 
is collectable ought to be included in the offset program. I 
think the difficulty is determining at what point and under 
what standards you decide that the debt is no longer 
collectable and should be abandoned. But the fact that a debt 
is delinquent for a long period of time does not automatically 
mean that it shouldn't be included in the offset program.
    Mr. Murphy. Just to add to that, Mr. Chairman, in the cases 
where an agency writes off a debt and they actually close it 
out, they report it to IRS as income on a 1099--at that point 
we cease all collection efforts, offset, private collector, et 
cetera. But if it hasn't been closed out, it is still possible 
that, if it hasn't gone to a private collector before, we could 
send it to one.
    Mr. Horn. I'm glad you mentioned the 1099. I noticed in the 
testimony it's labeled 1099C. Does that simply mean the third 
version of that form, or what is the ``C'' aspect?
    Mr. Hawke. I think the letters that are attached to 1099 
indicate in general terms the source of the funds that are 
being repaid. ``C'' probably refers to cancellation of debt.
    Mr. Horn. That certainly becomes income on which they pay 
taxes. And do we have any studies by GAO or the various 
Inspectors General of how effective that is once it's put on 
your tax bill? Well, staff tells me that after it goes over to 
IRS, it is a 20 percent collect--that's 2-year old data, but we 
need to get in the record at this point just how that system 
works. Is it effective or is it boats passing in the night? 
Because I think that certainly is one way to wake a few people 
up as to their obligations.
    Anything else you want to say on that?
    Mr. Hawke. I might just add on that last point I had 
occasion recently to pay a visit not only to the FMS processing 
center in Philadelphia but the enormous IRS processing center, 
and they gave me a demonstration of exactly how the 1099s are 
cross-referenced in taxpayers' records, so that when returns 
are reviewed, if a 1099 is not reflected in the return, it 
should set off some lights.
    Mr. Horn. Interesting. Where was that? In the Philadelphia 
center?
    Mr. Hawke. In the Philadelphia center.
    Mr. Horn. Is that true in all centers?
    Mr. Hawke. I think that is part of the normal process.
    Mr. Horn. I see. OK. Now, how will Treasury ensure systems 
compatibility when it is receiving debts from a number of 
Federal agencies? Is this going to be a problem? The 
compatibility in terms of systems, you're having other agency 
plug into your system, I assume, and it is like the year 2,000 
bit that we are worried about when these connections are made, 
are they really submitting debt or submitting viruses? I'm not 
sure which, but does it work through the system and how are we 
working that out?
    Mr. Murphy. Basically, we have a debt collection 
computerized system, which we have the core of that system now, 
and so we still have some manual processes as well as 
automated, but we will be enhancing that as we buildup volume. 
And there are linkages that we envision giving agencies some 
options. Some can get on-line if they wish, while others might 
want to deliver data to us by magnetic tape. We will try to 
provide some options, but it will take a while to develop all 
of those linkages. But they are important, and that is what 
takes time in building systems.
    Mr. Horn. For the record, when are you beginning the new 
enforcement programs in the areas of debt collection and child 
support enforcement, and what sort of public education campaign 
do you envision to get the word out?
    Mr. Murphy. As I mentioned, Mr. Chairman, we are working 
with the individual States to work when they're ready to be 
able to come in and via the offset system. We are hoping to do 
a public awareness campaign there, and we are looking under 
every stone for a few dollars to help finance that. We do want 
to get the word out to the public, and we will be implementing 
with individual States between now and probably January 1998.
    Mr. Horn. Very good. Does that take extra authorization to 
wage a public campaign in this area or do you have that 
authority basically?
    Mr. Murphy. Well, I believe HHS has done some public 
awareness things and has had money appropriated to them for 
some of those purposes. We just want to get the word out. We 
can use public service announcements, free press, anything we 
can.
    Mr. Horn. Have the States been fairly receptive to this?
    Mr. Murphy. The States have been quite interested. We've 
had a number of conference calls with all the States. And for 
each one of them, we have listed the concerns they have over 
systems and operational matters. But a number of them are 
anxious to get started as soon as possible. The basic factor is 
how their system works and whether they can provide frequent 
updates of the information.
    Mr. Horn. Very good. Last night we received a letter from 
David J. Kerwin of Arthur Andersen's Chicago office, and we 
furnished that to your congressional liaison. It might be 
something that you want to put in the record. But what it 
boiled down to, as I understand it, is that they service a $6 
billion student loan portfolio and Mr. Kerwin raised the 
concern with respect to the contracts with the collection firms 
that are under consideration by the Financial Management 
Service allowing private contractors to retain accounts in 
repayment unless they are terminated for cause. And as I say, I 
have shared that with your staff. And ensure that the potential 
situation he described is avoided. Can we assure that?
    The subcommittee staff apparently spoke with Financial 
Management Service staff and it appears to be the intent of the 
FMS, but some aren't too convinced. And the Treasury and the 
subcommittee staff work out if this is a baseless concern or is 
it a legitimate concern? So we are going to put it in the 
record without objection at this point, and what we would like 
is the Treasury answer to this?
    Mr. Murphy. Fine.
    [The letter referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.049
    
    [GRAPHIC] [TIFF OMITTED] 44176.050
    
    [GRAPHIC] [TIFF OMITTED] 44176.051
    
    [GRAPHIC] [TIFF OMITTED] 44176.052
    
    Mr. Horn. Moving right along, we are all set. And let me 
just look up a few more things in my annotated notes from 
midnight. Well, I've asked the question, but let me ask you, 
Secretary Hawke, I have been concerned about the IRS putting 5-
year-old debt in the test pilot that private collectors are 
trying to get. And I guess my question is, isn't that 
uncollectable?
    Mr. Hawke. I would hesitate to generalize about the 
collectability of 5-year-old debt, Mr. Chairman. I think it 
depends very much on the circumstances. Certainly, if rigorous 
collection efforts have been pursued and debt remains 
delinquent after 5 years, that gives you a pretty dim view of 
collectability.
    Mr. Horn. I noticed in your sort of penultimate paragraph 
on page 2, you note that you are going to collect delinquent 
debt that is over 180 days old through collection and 
Treasury's Financial Management Service or through private debt 
collectors. I am also curious what the policy is with regard to 
private debt collectors; what the thinking is, even if it isn't 
a policy yet. Do you see a role there for that vast apparatus 
around the country, be it tax attorneys or private debt 
collectors, in helping us get the debt?
    Mr. Hawke. Oh, very much so, Mr. Chairman. I think they are 
very much a part of the process.
    Mr. Horn. OK. Now, Mr. Murphy, I think I scrawled a few 
things on several of your pages. Let me flip by. I would hate 
to have you leave the room and say why didn't I ask that 
question.
    Yes, on page 5 of your statement, in the second bullet at 
the top it says, Treasury is working with the Office of 
Management and Budget and the large credit granting agencies to 
establish debt sales programs for appropriate debt portfolios. 
I'd just like to know sort of where are we now on those?
    Mr. Murphy. The Federal Credit Policy Working Group has 
been looking at that, and they have an interagency team which 
is looking at best practices and what's been successful in the 
past. And they have come up with recommendations as to the 
strategy that ought to be used.
    OMB has the lead role in that area and would be consulting 
with Treasury on sales, and there are some agencies that are 
actively considering asset sales.
    Mr. Horn. Very good. On the advertisements which I'd 
mentioned earlier? If you could give us a few examples. We'd 
like to look at them and put them in the record if we can. We 
are never sure what GPO can print and not print, but we will 
test them, and if we can't get it in we at least would like to 
look at it. And we thank you both for coming. It has been 
excellent, solid, professional testimony, and I deeply 
appreciate it. Thank you very much.
    Mr. Hawke. Thank you, Mr. Chairman.
    Mr. Murphy. Thank you, Mr. Chairman.
    Mr. Horn. All right, we are making progress slowly. And 
that is my fault. And we are on panel 4.
    Mr. Strader is not here?
    [Witnesses sworn.]
    Mr. Horn. All five witnesses have sworn. We will go down 
the line in the order in which you are seated. Ted David is the 
Chief Financial Officer of the Department of Agriculture. 
Welcome. We will begin with you.

STATEMENT OF TED DAVID, CHIEF FINANCIAL OFFICER, DEPARTMENT OF 
                          AGRICULTURE

    Mr. David. Thank you, Mr. Chairman. As you mentioned, I am 
Irwin Ted David, the acting Chief Financial Officer of the 
Department of Agriculture, and I very much appreciate the 
opportunity to share with you the progress that USDA has made 
in implementing the Debt Collection Improvement Act of 1996.
    With me is Mr. Richard Guyer, director of our Fiscal Policy 
Division in the office of the Chief Financial Officer. He is 
responsible for overall debt management policy in USDA.
    As I know you are very well aware, USDA programs touch 
every American every day. If it is not in the clothes we wear, 
then it is in the food we eat, the water we drink, the houses 
we live in, the lunches our children eat in the schools, or the 
recreation that we enjoy in our national forests. One of the 
major USDA strategic goals is to expand economic and trade 
opportunities for farmers and other rural residents. Fulfilling 
this goal will provide stable agricultural earnings and a 
productive rural economy, which will improve the quality of 
life for rural America and for all Americans.
    USDA fulfills its responsibilities to farmers and other 
rural residents through a number of programs, guided by 
statutory requirements, legislative mandates, and 
administration initiatives. Meeting the needs of rural families 
and communities is accomplished in part through a number of 
farm and rural credit programs which provide financing for 
water and wastewater systems, financing for decent affordable 
housing, financing for electric and telephone utilities and 
rural businesses, and financing of farm ownership and 
operations, and emergency disaster assistance and relief.
    These loan programs are designed to support our strategic 
goal to improve the life in rural America. Thus, several of the 
programs are targeted to low income individuals so that USDA is 
often the lender of last resort. USDA also holds a large number 
of noncredit, noncollateralized domestic debt. This debt arises 
from food stamp overissuances, timber operations and crop 
insurance overpayments, among others.
    In this category we have a large number of debtors and a 
relatively small debt load. On an overall basis as of September 
30, 1996, USDA was owed a total of approximately $108 billion 
in 4.4 million accounts. This is down from $115 billion in 
1992.
    Of this total, approximately $104 billion resulted from a 
variety of our loan programs. USDA as of September 30, 1996 had 
3.3 million delinquent accounts, which total approximately $8.8 
billion, which is 8 percent of outstanding balances, which is 
down from the 11 percent that existed in 1992. Of these 
outstanding loan accounts nearly 3 million are due to food 
stamp overpayments.
    During fiscal 1996, USDA wrote off approximately $1.8 
billion of delinquent loans, which is also down from 1992. USDA 
programs, as you know, are among the biggest direct lenders of 
Federal credit, with 53 percent of loans and 33 percent of 
total debt owed to the Federal Government. In addition, we 
guarantee loans valued at approximately $18 billion.
    In fulfilling our responsibilities, we believe that each 
and every debt should be repaid in accordance with the 
requirements and regulations under which the loan was made or 
the debt incurred, including the proper exercise of repayment 
and servicing provisions specified by the enabling legislation 
that created the programs.
    The Debt Collection Improvement Act of 1996 provides new 
and expanded tools to assist us in pursuing the collection 
processes. In fact, USDA had implemented several of the 
techniques incorporated in DCIA as early as 1985. We have made 
significant progress in implementing or expanding the 
provisions of the act, including establishing processes and 
procedures for implementing Treasury's administrative offset 
program; implementing the provisions of collecting taxpayer 
identification numbers; reporting write-offs to IRS; revising 
USDA's process for routinely adjusting civil monetary 
penalties; reporting current and delinquent debt to credit 
bureaus, and referring delinquent debt to collection agencies 
for collection.
    We believe that Treasury's administrative offset program 
promises to be an excellent collection tool, which when fully 
implemented will increase opportunities for collection. 
However, we at USDA have experienced two barriers in 
implementing this provision. First, we have to make changes in 
our computer systems to enable us to transmit timely and 
accurate information to Treasury. We also have to publish new 
regulations or modify existing regulations of agencies' systems 
of records to meet the requirements of the Privacy Act.
    We do plan to start referring debts to Treasury for 
administrative offset by July 1997, and we estimate that we may 
be able to refer as much as $7 billion by the end of the year. 
Until we are able to implement Treasury's administrative offset 
program, we will continue to collect delinquent debt through 
income tax refund and salary offset programs. During fiscal 
1996, we collected $43 million through the income refund offset 
program and our collections are even better in fiscal 1997. 
Since 1986, we have collected over $267 million through this 
program.
    USDA also collects taxpayer identification numbers from our 
vendors, our borrowers, our clients, and our debtors. In 
February 1997, we issued a new departmental regulation 
requiring USDA agencies to provide TIN numbers on all requests 
for payments and discharges of indebtedness. One issue we have 
encountered is in the verification of those TIN numbers. USDA 
agencies have been reporting write-offs to the Internal Revenue 
Service for inclusion in the debtor's taxable income since 
1990. Our agency has reported over $714 million in 1995 write-
offs to IRS using the IRS form 1099C. USDA has also developed a 
final rule to adjust civil monetary penalties imposed by USDA 
agencies to incorporate inflation adjustments. This final rule 
should be published in the Federal Register within the next 2 
months.
    USDA also plans to use Treasury's debt collection center 
and private collection contracts and will continue to refer 
delinquent debts to Justice for litigation where appropriate. 
In addition, three USDA agencies have expressed interest in 
becoming debt collection centers. They are in various stages of 
making their proposals to Treasury to become such centers.
    Mr. Horn. Would you mind putting them in the record at this 
point? What are the three areas?
    Mr. David. I believe they are our office, the Office of the 
Chief Financial Officer; the Farm Service Agency; and the Rural 
Development Agency.
    Mr. Horn. Fine. Go ahead. We are running short of time 
here.
    Mr. David. Since 1985, USDA has routinely referred 
delinquent consumer and commercial accounts to credit bureaus. 
The total referred to date is $60 billion. In addition, as Mr. 
Koskinen referred to before, all USDA credit granting agencies 
plan to incorporate debt collection performance measures into 
agency strategic and performance plans under the Government 
Performance and Result Act.
    Such measures are in addition to the program-related 
performance measures. I cited in my formal statement some of 
the measures; I won't go through those right now.
    In conclusion, USDA provides many programs, including 
credit programs to assist the agricultural community and rural 
America in improving the quality of life, improving their 
economy, and maintaining a stable farm economy. We believe that 
each and every debt should be repaid in accordance with the 
conditions under which the loan was established, and the 
program guidelines under which the debt was incurred.
    USDA intends to use all the tools available to us to reduce 
the number and amount of delinquent debt. The Debt Collection 
Improvement Act provides a number of new tools which will 
assist us in pursuing the collection processes.
    We look forward to working with the Office of Management 
and Budget, Treasury, and the other Federal departments and 
agencies through the Federal Credit Policy Working Group along 
with the Chief Financial Officers Council, to develop the 
mechanisms to collect delinquent debt owed to the Federal 
Government.
    That concludes my prepared remarks, Mr. Chairman. I am 
pleased to answer your questions at the appropriate time.
    [The prepared statement of Mr. David follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.053
    
    [GRAPHIC] [TIFF OMITTED] 44176.054
    
    [GRAPHIC] [TIFF OMITTED] 44176.055
    
    [GRAPHIC] [TIFF OMITTED] 44176.056
    
    [GRAPHIC] [TIFF OMITTED] 44176.057
    
    [GRAPHIC] [TIFF OMITTED] 44176.058
    
    [GRAPHIC] [TIFF OMITTED] 44176.059
    
    [GRAPHIC] [TIFF OMITTED] 44176.060
    
    [GRAPHIC] [TIFF OMITTED] 44176.061
    
    [GRAPHIC] [TIFF OMITTED] 44176.062
    
    Mr. Horn. Steven McNamara is the Assistant Inspector 
General for Audit, U.S. Department of Education.

 STATEMENT OF STEVEN McNAMARA, ASSISTANT INSPECTOR GENERAL FOR 
                 AUDIT, DEPARTMENT OF EDUCATION

    Mr. McNamara. Thank you, Mr. Chairman, for this opportunity 
to testify on the implementation of the Debt Collection 
Improvement Act. Like everyone else, I'll try to be brief and 
submit my comments for the record.
    I'm in a somewhat unique position, being the only member of 
the IG community on this panel, so my perspective may be a 
little bit different from some of the others that you have 
heard today. Although we have not audited the Department's 
response to your subcommittee and to the ranking member, we 
have conducted a fair amount of work in the general area of 
debt collection, and our review of the Department's response 
and our knowledge based on the work that we have performed 
leads us to conclude that the Department of Education is making 
pretty good progress in implementing the Debt Collection 
Improvement Act. In fact, Education was employing a number of 
the mechanisms now under the act under previous statutory 
authority, such as tax refund offsets, wage garnishment and a 
number of matching agreements with other Federal agencies.
    It occurs to me that, to take it to the next level, it is 
going to call for the guidance and direction from the 
Department of the Treasury, whom you heard from earlier, 
particularly in the area of developing systems so that a lot of 
information can be shared between and among the various 
agencies in a cost-effective and efficient manner.
    Mr. Chairman, I'd like to mention one specific audit we've 
done. There are others listed in my testimony and you spoke of 
them earlier. It was the match that we did with the IRS, where 
we compared the income reported by students on their 
applications for student aid with what they reported to the 
IRS. As you mentioned, we found that over $100 million was 
overawarded to individuals who were applying for Pell Grants, 
and I might add that our approach was very conservative. We 
didn't consider parents' income and we didn't take into 
consideration a number of other sources. So the amount may be 
far higher than the $100 million.
    In some of these instances we had over 300 of these 
individuals who reported making zero income when they applied 
for student aid, when they made over $100,000 according to what 
they reported to the IRS. One individual reported to the IRS 
they made $1.3 million, but claimed zero income when they 
applied for student aid.
    These are areas, I think, Mr. Chairman, where we have 
recommended that there is going to have to be legislation to 
enable a match to be conducted. The IRS so far in dealing with 
the Department is not willing to set up a match short of having 
this legislation, and it needs to be on the front end where as 
a prerequisite for receiving financial aid from the Federal 
Government you would agree to allow us to match your income so 
that we can verify what you say.
    Mr. Horn. Well, you are absolutely correct, and we will 
followup. Staff will sit down with Ways and Means staff and see 
if we can't get it in their bill if it is moving. If it isn't 
moving, we will do it ourselves.
    Mr. McNamara. We appreciate your support and if there is 
anything we can do or any briefings, we would be happy to 
provide that.
    Mr. Horn. Since you raised the subject, let me put in the 
record at this point the Wall Street Journal article of March 
11, 1997, pages A-1 and A-15, entitled ``Cheat Sheets: Student 
applications for financial aid give lots of false answers. Tax 
returns often conflict, but colleges don't try very hard to 
stop fraud. Pell grants for the well off.''
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.063
    
    [GRAPHIC] [TIFF OMITTED] 44176.064
    
    [GRAPHIC] [TIFF OMITTED] 44176.065
    
    Mr. Horn. Having been a college administrator that took a 
great deal of pride in a very efficient financial aid office, 
I'm obviously unhappy when 10 years later I see that sort of a 
headline. We need to do something about it. You have got the 
suggestions, and I commend the Department of Education for what 
it's done over the last few years. It's really quite 
significant. You are tracking down the delinquent debt.
    Mr. McNamara. In closing, Mr. Chairman, I'd just like to 
point out that any assessment of Ed's progress in implementing 
the act has to take into account the nature of student loans. 
They're inherently risky. There is no requirement for 
collateral or creditworthiness. Students move around a lot. It 
can make it difficult to locate them and collect. So Education 
has to balance the social goals of providing access to 
education and encouraging higher education with those of the 
more strict business-like approach of the Debt Collection Act. 
That concludes my summary statement.
    [The prepared statement of Mr. McNamara follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.066
    
    [GRAPHIC] [TIFF OMITTED] 44176.067
    
    [GRAPHIC] [TIFF OMITTED] 44176.068
    
    [GRAPHIC] [TIFF OMITTED] 44176.069
    
    [GRAPHIC] [TIFF OMITTED] 44176.070
    
    [GRAPHIC] [TIFF OMITTED] 44176.071
    
    [GRAPHIC] [TIFF OMITTED] 44176.072
    
    [GRAPHIC] [TIFF OMITTED] 44176.073
    
    [GRAPHIC] [TIFF OMITTED] 44176.074
    
    [GRAPHIC] [TIFF OMITTED] 44176.075
    
    [GRAPHIC] [TIFF OMITTED] 44176.076
    
    [GRAPHIC] [TIFF OMITTED] 44176.077
    
    [GRAPHIC] [TIFF OMITTED] 44176.078
    
    [GRAPHIC] [TIFF OMITTED] 44176.079
    
    [GRAPHIC] [TIFF OMITTED] 44176.080
    
    [GRAPHIC] [TIFF OMITTED] 44176.081
    
    [GRAPHIC] [TIFF OMITTED] 44176.082
    
    Mr. Horn. We thank you for that fine statement and now we 
have D. Mark Catlett, Assistant Secretary for Management and 
Chief Financial Officer, Department of Veterans Affairs.

     STATEMENT OF D. MARK CATLETT, ASSISTANT SECRETARY FOR 
MANAGEMENT AND CHIEF FINANCIAL OFFICER, DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Catlett. Good morning, Mr. Chairman. It is my pleasure 
to testify on behalf of the Department of Veterans Affairs on 
our implementation of the Debt Collection Improvement Act, 
DCIA. As VA Chief Financial Officer, I am working closely with 
the Veterans Benefits Administration and the Veterans Health 
Administration, within the Department, to take the steps 
necessary to ensure our compliance with the requirements of 
DCIA.
    I believe the VA has long been a leader in the Federal debt 
management community. Since 1991, the Veterans Benefits 
Administration has operated a debt management center in Saint 
Paul, MN, which controls and maintains an automated collections 
system that has been in existence since 1975. The debt 
management center utilizes every collection tool available to 
Federal agencies in an operation that emphasizes both the 
prevention and collection of debt.
    Over the past year we have been moving closer to our goal 
of consolidating all significant VA debt programs into one 
centralized automated collection system. We have now made 
significant progress toward automating the billing and payment 
process of the first party medical receivables at centralized 
sites, and we have laid the groundwork for consolidating the 
management of these debts under the debt management center.
    Enactment of DCIA provides Federal collection officials 
with some new collection tools, and it also imposes on these 
officials some new requirements. Let me expand briefly on some 
of our responses to the earlier written inquiry by this 
subcommittee.
    Concerning administrative offsets and cross-servicing, VA 
is preparing an initial referral from our debt management 
center to Treasury of certain debts delinquent more than 180 
days. We have released notification to the referral candidates 
in March, and we will make the actual referrals to the Treasury 
during this month of April. About 39,000 notices were released, 
representing debts valued at $201 million.
    Our debt management center is working with OMB and Treasury 
to explore the possibility of becoming a cross-server of 
government debt under the DCIA. In regards to this objective, 
our debt management center will be submitting a debt collection 
business plan to OMB, and on April 8, last week, we submitted a 
cross-servicing application to the Department of Treasury. 
These documents will serve as the basis for our upcoming 
discussions with OMB and Treasury.
    The debt management center has been successful in 
collecting its own delinquent claims, using all appropriate 
collection tools, such as Federal salary offset, tax refund 
offset, and the use of credit reporting agencies and private 
collection agencies.
    The debt management center also has an extensive management 
reporting system, all of which indicates, in my belief, the 
debt management center's ability to collect the debts of other 
agencies and to provide incremental servicing of any collection 
function as necessary.
    On debt sales, VA has a highly efficient process for 
selling loans and generally executes three loan sales a year. 
In the three sales for fiscal year 1996 plus the first sale in 
this fiscal year, VA sold a total of 24,248 loans with a 
balance of almost $1.7 billion.
    On the tax identification number, in January 1997, the VA 
notified commercial vendors who did not have TIN information on 
file with us that they must supply such information in order to 
receive payment. Of the more than 260,000 vendors with which we 
conduct business, there were 46,000 for which we did not have 
TIN information in January. Today, we have reduced that number 
to less than 5,000.
    VA currently maintains Social Security information for the 
vast majority of our benefit payment recipients. In addition, 
new applicants for VA benefits are now requested to provide 
their Social Security numbers.
    Again, in closing, I would like to thank you for the 
opportunity to present our progress in the implementation of 
the DCIA.
    [The prepared statement of Mr. Catlett follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.083
    
    [GRAPHIC] [TIFF OMITTED] 44176.084
    
    [GRAPHIC] [TIFF OMITTED] 44176.085
    
    [GRAPHIC] [TIFF OMITTED] 44176.086
    
    [GRAPHIC] [TIFF OMITTED] 44176.087
    
    [GRAPHIC] [TIFF OMITTED] 44176.088
    
    [GRAPHIC] [TIFF OMITTED] 44176.089
    
    [GRAPHIC] [TIFF OMITTED] 44176.090
    
    [GRAPHIC] [TIFF OMITTED] 44176.091
    
    [GRAPHIC] [TIFF OMITTED] 44176.092
    
    Mr. Horn. Well, I appreciate that testimony. We will have a 
number of things to discuss later on all of these. Thank you 
for summarizing.
    Anne Donovan is from the Office of Child Support 
Enforcement, Department of Health and Human Services, and I 
believe you were going to be accompanied by Mr. Strader. I 
don't know if he's here or not; is that correct?
    Ms. Donovan. I was unaware I was being accompanied by him 
until I saw your list, so I don't know. I am sorry.
    Mr. Horn. Is he here at all?
    Ms. Donovan. He's not here.
    Mr. Horn. Go ahead.

STATEMENT OF ANNE DONOVAN, OFFICE OF CHILD SUPPORT ENFORCEMENT, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Donovan. Thank you. Good morning Mr. Chairman and 
members of the subcommittee who are here. I am pleased to 
appear before you today to testify on implementation of the 
Debt Collection Improvement Act of 1996. My testimony will 
focus on the use of the act to collect child support owed on 
behalf of millions of our Nation's children.
    The goal of the child support enforcement program is to 
ensure that children are financially supported by both their 
parents. Today, when high divorce rates translate into a host 
of social problems, it is more important than ever to reaffirm 
that both parents have a responsibility to support their 
children.
    As you have noted, Mr. Chairman, President Clinton has made 
improving child support enforcement and increasing child 
support collections a top priority. The Debt Collection 
Improvement Act contains provisions that will significantly 
assist States' efforts to that end and will complement the 
enforcement tools included in the new welfare reform law, and 
we thank you and Congresswoman Maloney and this committee for 
that.
    To ensure that the full force and effect of the Debt 
Collection Improvement Act are brought to bear on parents that 
refuse to support their children, the President issued 
Executive Order 13019 on September 28, 1996, mandating 
Executive agencies to take specific actions to implement the 
law. The order requires all Federal departments and agencies to 
take necessary and legal steps to deny Government loans, such 
as small business loans, farm loans and home loans, to 
nonsupporting parents. The order also calls for collection of 
past due support through an administrative offset program which 
can identify people who receive Federal payments and who owe 
child support. This would allow support debts to be deducted, 
for example, from fees paid to Government consultants and 
vendors; funds that could otherwise be paid to families.
    Since tax refunds and Federal salary payments have been 
available for attachment to pay child support debts for many 
years, we anticipate that the category of ``vendor 
miscellaneous payments,'' where an individual payee can be 
identified, will result in the bulk of child support offsets 
under this program. An estimated 16,152,000 annual vendor 
miscellaneous payments are scheduled to be in the system, and 
Treasury estimates a significant amount of these payments have 
potential for administrative offset for child support 
enforcement purposes.
    The Office of Child Support Enforcement has been working 
closely with the Department of Treasury and has convened a 
joint work group to identify and resolve potential 
implementation problems. We have taken the initiative to ensure 
that all State CSE agencies are fully apprised of the potential 
for administrative offset, and we have worked hard to promote 
the new program for all States which have the current systems 
capability to utilize it.
    We contacted all child support enforcement programs to 
discuss implementation capability, a critical issue given 
States' focus now on their new responsibilities under welfare 
reform. States fell into categories: those which could begin 
implementation immediately or within a few months, and those 
which require significant systems modifications or needed 
enabling legislation, signaling the need for a phased-in 
approach.
    However, we anticipate that all States would be able to 
participate in the Treasury offset program by January 1998, 
when the tax refund offset program will be merged with 
Treasury's offset program at Treasury's Financial Management 
Services. Federal tax refunds will then become one of the many 
Federal payments offset in the Treasury offset program.
    As a result of our activities, we have already begun to 
identify cases which are eligible for administrative offset. 
During the week of April 7th, as you heard, we issued pre-
offset notices for three States, Arizona, Kansas and South 
Dakota, and offsets are scheduled to begin on May 12th.
    This week pre-offset notices were sent out for Connecticut 
and the District of Columbia, and offsets on behalf of those 
cases should begin also in mid-May. Today, we received notice 
from California that they were certifying half a million cases, 
almost triple what we had received so far. Notices for them 
will go out next week and offsets will begin in mid-May. A 
number of other States will join the administrative offset this 
year.
    We will continue to work closely with the remaining States 
to resolve the issues impeding their participation. The Office 
of Child Support Enforcement was the first agency to 
participate in the tax refund offset program for past due child 
support collections, and to date we have collected over $7.4 
billion. Last year the States submitted over 5.3 million cases 
through the Office of Child Support Enforcement to the Internal 
Revenue Service for offset, resulting in record breaking 
collections totaling over $1.02 billion.
    Given this experience, we are very excited about 
participating with Treasury in this new program, and we want to 
ensure that it's carefully planned and implemented with maximum 
participation by the State child support agencies. We believe 
that this collaborative partnership is essential to guarantee 
that the program succeeds.
    In conclusion, Mr. Chairman, this administration is fully 
committed to utilizing the resources provided by the Debt 
Collection Improvement Act for the enforcement of child 
support. The Office of Child Support Enforcement will continue 
to work closely with the Department of Treasury and our State 
partners to ensure the full implementation of Executive Order 
13019, which will certainly result in enhancing the collection 
of desperately needed child support for the children of 
America.
    Thank you again, and to your subcommittee, for the 
opportunity to testify, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Donovan follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.093
    
    [GRAPHIC] [TIFF OMITTED] 44176.094
    
    [GRAPHIC] [TIFF OMITTED] 44176.095
    
    [GRAPHIC] [TIFF OMITTED] 44176.096
    
    [GRAPHIC] [TIFF OMITTED] 44176.097
    
    [GRAPHIC] [TIFF OMITTED] 44176.098
    
    [GRAPHIC] [TIFF OMITTED] 44176.099
    
    Mr. Horn. Well, we thank you very much for coming. I am 
going to pursue a few questions with each of you, and then in 
the interest of time we will submit the rest to you and, if you 
don't mind, file the answers for the record. We will put them 
in at this point.
    Let's start with you, Mr. McNamara, on education. Many of 
the delinquencies in education are as a result of fly by-night 
trade schools or fly by-night correspondence schools. Can the 
Department implement performance measurements for trade schools 
and correspondence schools which measure their success in 
graduating and employing students and use that information as a 
basis for cutting off schools that are abusing the process?
    Mr. McNamara. Mr. Chairman, we think that would be an 
excellent approach that would prevent many of these defaults 
and would also prevent many of these students from becoming 
victimized by the types of trade schools that you just 
mentioned. We think that it is absolutely imperative. Our 
Inspector General Tom Bloom always says what you measure you 
get. If the Department, I think, started measuring performance 
by these trade schools, you would see a significant increase. 
This is going to take a change right now, and I think it is 
something we are pushing for in reauthorization. We have not 
yet seen what the Department's approach is going to be.
    Mr. Horn. As I remember, you have got an 85/15 formula in 
this area, don't you?
    Mr. McNamara. Yes, sir.
    Mr. Horn. Has that been of any help?
    Mr. McNamara. We are looking into that right now. I think 
GAO is doing some work. It is a little bit too early to tell. I 
don't think we have seen much result from what we know now of 
schools being kicked out as a result of failing the 85/15. I 
don't know how effective it is working.
    Mr. Horn. I didn't even know about it. As a university 
president, I didn't know anything about it. I was walking 
across the floor one day and Maxine Waters was on the floor 
taking on the Education Committee, and what she said made sense 
to me. So I joined her in taking on the Education Committee. 
Mr. Ford was then the chairman and we forced a vote in the 
103d--the Democratic Congress--and we lost. Guess why? I mean 
there is a lot of PAC money floating around somewhere from 
trade schools and others, and it is pretty disgusting.
    So we will try to deal with that, and hopefully you will 
get the authorization committee to deal with it and we will 
take a look at it. That needs its own investigation, I think.
    Mr. McNamara. During reauthorization, Mr. Chairman, there 
are other areas that I have mentioned in my testimony in which 
we think changes would also be of benefit to the Debt 
Collection Improvement Act, the plus loan limits and some of 
the others. The ICR contingent repayment has some possibility 
of being costly as well, so these might all be issues that 
should be looked into.
    Mr. Horn. That's a good point. One other item that I was 
interested in--apparently your office's audit work indicates 
that the Government is losing $800,000 per day by giving out 
loans to individuals who have defaulted on prior loans. Is that 
correct?
    Mr. McNamara. That is correct, Mr. Chairman, but we had 
done an audit several years ago and we found that the lack of 
an edit allowed that much money to be hemorrhaging. And it was 
about $300 million a year, our estimate, and that turned out to 
be conservative. The Department took prompt action to put the 
edit in, and it started kicking out a lot of these individuals.
    What we found in recent work is that the student aid 
report, the document that goes to the college for the financial 
aid administrator to make the award, is flagged, saying this 
person has a previous default. What we are finding is that 
there is a disturbing number of cases where these financial aid 
administrators are awarding over top of this flag and people 
who have previous defaults that haven't been taken care of are 
receiving additional aid.
    Mr. Horn. What do you suggest is the solution to that 
problem? Can the Department under its administrative authority 
just start cutting off aid or lowering it based on incompetence 
among some financial aid administrators?
    Mr. McNamara. We think the easiest way to fix it would be 
if it hit the default match that a valid SAR not be issued, and 
just come and say that Joe is default and no aid can be 
issued----
    Mr. Horn. When you say a SAR, translate that. What is it?
    Mr. McNamara. A student aid report. This is the document 
that comes to the college that shows how much student aid the 
student is eligible for. And what we believe is there should 
not be a valid student aid report issued if you're in default. 
You should have to clear it up. There is some concern that this 
would be an inconvenience to the student borrower, but our 
position is that if you are in default you probably should bear 
a little inconvenience.
    Mr. Horn. Good attitude. Thank you very much for your 
comments on that, and the rest we will just file with you, if 
you would be good enough to answer them for the record.
    Mr. Catlett, on the Veterans Administration, I have one 
question which I always ask a person in your position. You are 
not only the Chief Financial Officer, you are the Assistant 
Secretary for Management. How much time do you spend being 
Chief Financial Officer?
    Mr. Catlett. Being Chief Financial Officer?
    Mr. Horn. Yes, how much time in the 8-hour day do you spend 
on Chief Financial Officer duties?
    Mr. Catlett. Well, as you know, I'm CIO as well as the CFO, 
and all of my time is spent on those two responsibilities. I'd 
have trouble--I can do it for the record if you would like, 
splitting between the two. But I don't know the distinction 
that you are trying to make between the Assistant Secretary for 
Management and the CFO.
    Mr. Horn. Well, you are Assistant Secretary for Management.
    Mr. Catlett. Yes, sir.
    Mr. Horn. And you are Chief Financial Officer; is that 
right?
    Mr. Catlett. Yes, sir.
    Mr. Horn. And you are Chief Information Officer?
    Mr. Catlett. Yes, sir.
    Mr. Horn. How many hours do you spend on each function 
every day?
    Mr. Catlett. I split those functions equally, as I look at 
it, between the financial office responsibilities and the 
information office responsibilities.
    Mr. Horn. So you are doing the work of three people?
    Mr. Catlett. Well, I view my job as the Assistant Secretary 
for Management to be doing those two things, primarily.
    Mr. Horn. Well, the reason I ask the question, I haven't 
had to really deal with VA much, although I am going to hold a 
joint hearing in the next few months, I might as well warn you, 
on your computer situation, because we had some discussions 
with the veterans' committee on that.
    My frustration, and the same goes with the Treasury 
Assistant Secretary CFO, I don't know if he is the CIO, too, is 
that we are not getting the job done. There is no way one 
person can do those three jobs and I don't understand why 
cabinet officers permit that, and so you have got my bias right 
up front.
    Mr. Catlett. Yes, sir.
    Mr. Horn. And the reason IRS is the basket case of the 
administration is because Treasury has never spent the time to 
focus in on their financial thing. They will not be able to 
submit this Congress, which, under the law, 5 years ago, said, 
by September 1997 you have to be able to get a balance sheet. 
They don't have one. Guess why. Nobody is riding them on it. 
Will the VA have a balance sheet by September?
    Mr. Catlett. Yes, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44176.100
    
    [GRAPHIC] [TIFF OMITTED] 44176.101
    
    Mr. Horn. OK. Well, great. We will take a look at it. 
Anyhow, that whole conflict there of three officers that the 
Congress has separately established just does not set well with 
me. To me, one of those jobs is 18 hours a day, and three of 
them, we don't have that many hours to worry about.
    OK. The Veterans Health Administration, third party medical 
debts, were they ever referred in the General Services 
Administration contract for private collection agencies?
    Mr. Catlett. No, sir, I don't believe so. And, again, as 
you understand, we have an interesting situation. They are not 
delinquent debt, even though we have a definition question 
there. It is a receivable, and it is a contractual relationship 
we have with that third party. We obviously have the 
complication at the VA of having to bill our per diem rate and 
receiving a payment less than that rate because of the 
adjustments they make for Medicare adjustments and other things 
that we do not and cannot collect. So, we will use private 
collection agencies, but I don't believe we use the GSA 
collection contract.
    Mr. Horn. Do you intend to refer them to the Treasury, 
Financial Management Service?
    Mr. Catlett. The third party specifically we will not. All 
of our other debts were referred there. If we have a 
disagreement on the third party with our insurers, we will 
generally refer that to our district counsel, and if it is 
large enough, we refer it to the Department of Justice for 
action.
    Mr. Horn. We will followup on that with you. There are 
perhaps a few more questions we need to ask there.
    Is the Veterans Health Administration, VHA, reluctant to 
refer debts to private collection agencies? What is your 
understanding of the Veterans Health Administration policy, 
within the VA?
    Mr. Catlett. Well, again, I think that would apply to what 
I call our first party debt, the debt of the veterans 
themselves, and in most cases, many of those are very, very 
small. Our average is just for the co-payment for 
prescriptions, which is in the range, sometimes, of less than 
$10. The average is less than $10. So, I don't think would be 
very beneficial. For larger debts, yes, we will consider that, 
and I would provide you for the record our action there, but in 
large part, the debt of the individual veterans in our health 
care is very, very small.
    [The information referred to follows:]

    The GSA contract under which VA refers debt to private 
collection agencies specifies that only debts of $100 or more 
may be referred. This threshold effectively eliminates most of 
VA's first-party portfolio from consideration for referral to a 
private collection agency. Once VA has consolidated the 
management of first-party debt at our Debt Management Center, 
we can refer to private collection agencies that small 
percentage of debts that are over $100 and that VA is unable to 
collect in house. Since private collection agencies have 
historically been able to collect only about one and one half 
percent of VA benefit debts that VA could not collect in house, 
we do not expect that these referrals will generate a dramatic 
increase in collections.

    Mr. Horn. What is the cutoff mark on when you decide to 
collect the debt and when you don't? I mean, what level are we 
talking of debt that you would deal with in referring for 
collection?
    Mr. Catlett. I will have to provide that for the record. In 
terms of a collection agency, we will pursue the debt no matter 
how small it is and we do that with the tools we have.
    [The information referred to follows:]

    As stated above, the GSA contract under which VA refers 
debts to private collection agencies specifies that only debts 
totaling at least $100 may be referred.

    Mr. Horn. Well, I guess our curiosity when the staff 
reviewed this is why has the Veterans Health Administration not 
referred the debts to their own agency's debt management center 
before, and the question obviously arose, is it because the 
debt management center is in the Veterans Benefit 
Administration, rather than the Veterans Health Administration? 
Do we have a little turf problem there?
    Mr. Catlett. We have been addressing that, Mr. Chairman. We 
began referring that debt this year. We have a pilot under way, 
and I will provide for the record the schedule for when we will 
refer all of our first party debt to the debt management 
center.
    That process has begun. I would not agree with your 
statement, but recognize your position that there has been an 
issue of folks pursuing their efforts and their activities, and 
our coordinating that, and the need to do that a little better. 
We have recognized that and have begun that process, and the 
referrals have begun. We have done a pilot in Pennsylvania and 
we will expand that throughout this next year, and we will 
provide for the record our schedule for referring all first 
party debt to our debt management center.
    Mr. Horn. Thank you. We will followup on that with various 
questions.
    [The information referred to follows:]

    We are currently developing programming to refer first-
party medical receivables that are at least 90 days old to our 
Debt Management Center. We are currently testing referrals from 
our medical center in Altoona, Pennsylvania.
    We are currently developing a model for a new debt 
collection database system in order to evaluate the feasibility 
of centralized management of all VA first-party debt. We plan 
to have the data model and process model for this system 
completed by October 1997. We will perform a cost benefit 
analysis to determine if we should proceed with developing this 
system. If the analysis is positive, we will then formulate a 
time table for Department-wide implementation.
[GRAPHIC] [TIFF OMITTED] 44176.102

[GRAPHIC] [TIFF OMITTED] 44176.103

    Mr. Horn. Now we are going to talk a little bit about 
agriculture. The General Accounting Office, Mr. David, has 
reported that certain agencies, including the Farmers Home 
Administration and some State guarantee agencies in the student 
loan program are not counting as delinquent some accounts for 
which the Government has not received payment for years. These 
billions of dollars in delinquencies would make the dismal debt 
picture even worse. Are these delinquencies still unreported? 
Is the U.S. Department of Agriculture complying with OMB 
guidance on this issue?
    Mr. David. To the best of my knowledge, we are complying 
with all OMB guidance, but I would like to get additional 
information on the specific referral and we will provide a more 
detailed response for the record.
    Mr. Horn. OK.
    Then we have, Ms. Donovan. Commissioner Adams noted his 
success in Massachusetts in collecting child support using wage 
garnishment. Over two-thirds of Massachusetts' total child 
support collections are collected in this matter. Is this a 
tool we ought to have at the Federal level to collect child 
support?
    Ms. Donovan. We do have it, Mr. Chairman. We have mandatory 
wage withholding in all cases.
    Mr. Horn. I'm sorry, I didn't hear that.
    Ms. Donovan. We have mandatory wage withholding now in all 
cases, all States.
    Mr. Horn. And you have no problem getting access to where 
these people are?
    Ms. Donovan. No, we don't.
    Mr. Horn. So you would say in your case, you don't need any 
additional law to use other agency records; is that right?
    Ms. Donovan. With this expanded Federal parent locator 
system that we are building, the national directory of new hire 
information will be in there as well as information from all of 
the State central registries of orders. We will have quarterly 
wage data in the system. We will have unemployment insurance 
information. So we will have plenty of information in that data 
base. It still, as you know, is very difficult to find people 
across State lines. Thirty percent of our case load are 
interstate cases but these tools will help us enormously.
    Mr. Horn. Well, we thank you very much. We might have a few 
other questions to send you and we will put them in the record 
at this point.
    With that, I wonder if Commissioner Morris--you have been 
sitting there quietly taking a few notes now and then. Would 
you like to add anything for the record?
    Mr. Morris. No, thank you, Mr. Chairman. I believe my boss, 
Mr. Murphy, has covered the subject pretty well.
    Mr. Horn. Such a wise decision. That is why I like your 
agency.
    I want to thank each of the witnesses for sharing with us 
your experience. I wish you well. We are going to hold another 
hearing just like this in 6 months and I hope we have a lot 
more delinquent debt that is moved over and various varieties 
of collection are being effectively run to get that in.
    I now want to thank the following people on the staff, both 
majority and the minority, for establishing this hearing. J. 
Russell George, the staff director of the Subcommittee on 
Government Management, Information, and Technology, does a 
tremendous job. The gentleman on my left, Mark Brasher, 
professional staff member, who is responsible for both the 
original measure in getting it through at a staff level, and 
also for the various hearings we have held. And John Hynes, 
professional staff member, who I don't see here, but he has 
worked to get this hearing suitably publicized, and Andrea 
Miller, our hard working clerk over there in the corner.
    And on the minority side, we have David McMillian, 
professional staff member; Mark Stephenson, professional staff 
member; and we have our faithful court reporters, Joe 
Strickland and Katrina Wright. We thank you all. Thank you very 
much, ladies and gentlemen.
    We are adjourned.
    [Whereupon, at 12:37 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
